<html>
<title> - THE INTERNATIONAL CAMPAIGN AGAINST TERRORISM</title>
<body><pre>[Senate Hearing 107-234]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-234

                       THE INTERNATIONAL CAMPAIGN
                           AGAINST TERRORISM

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate
                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
75-947                     WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia
                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Powell, Hon. Colin L., Secretary of State, Department of State, 
  Washington, DC.................................................     4
    Prepared statement...........................................     9
    Response to additional questions submitted for the record by 
      the committee..............................................    47

                                 (iii)

  

 
                       THE INTERNATIONAL CAMPAIGN
                           AGAINST TERRORISM

                              ----------                              


                       THURSDAY, OCTOBER 25, 2001

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 2:14 p.m. in room 
SR-325, Russell Senate Office Building, Hon. Joseph R. Biden, 
Jr., chairman, presiding.
    Present: Senators Biden [presiding], Sarbanes, Dodd, Kerry, 
Feingold, Wellstone, Helms, Lugar, Hagel, Smith, Chafee, 
Brownback, Allen, and Enzi.
    The Chairman.  The hearing will come to order. Welcome, Mr. 
Secretary. Our colleagues will be filing in as the vote winds 
down. I guess it wound down now, and they will have an 
opportunity to question. But I think in the interest of your 
time we should begin.
    With your permission, if and when we get a quorum here, 
which I fully expect, we may interrupt you and pass out 12 
Ambassadorial nominees while we have a quorum if we can. I am 
sure that will not offend you.
    Secretary Powell.  It will not offend me in the slightest, 
Mr. Chairman.
    The Chairman.  Mr. Secretary, I want to compliment you 
personally, and I want to compliment the President on the way 
you have both united the Nation and I think equally important 
in a sense for this undertaking, clearly equally as important, 
the way you have put together a coalition of the willing here 
and some of the timid, it seems to me. You put together a 
coalition of not only our traditional friends, but you put 
together a coalition of our friends in the Muslim world as well 
as some who are not automatically considered to be rallying to 
our concerns and needs.
    We need the support in the Islamic world, as you know 
better than I do. And as you said yesterday about bombing 
during Ramadan, we will do what we need to do, but we will be 
sensitive to that concern.
    I think the President has been incredibly skillful along 
with you in keeping the coalition together, in keeping Muslim 
leaders on board who are experiencing demonstrations and 
protests about U.S. bombings and accusations that we are 
attacking the whole Islamic world, which is simply not true. It 
is also a significant credit to your personal diplomacy.
    Let me say that I cannot speak for all Democrats--I do not 
think there has ever been a man or woman born who could speak 
for all Democrats--but I am confident when I say both political 
parties are united in our resolve to pursue and conclude 
successfully this war and to support the President's efforts.
    The world should know that we support our President and our 
military forces in their mission. To the best of my knowledge, 
there is no daylight, no daylight, between the parties or 
between the Congress and the administration on the way in which 
you are pursuing this effort.
    The world should also know that there is broad agreement, 
not only on eliminating Osama bin Laden and his al-Qaeda 
network, as well as the Taliban that supports him, but there is 
also broad agreement and support for the President's resolve to 
keep a coalition together to help feed displaced Afghans as 
well as put together, possibly with extraterritorial help from 
the United Nations or some other international fora, a viable 
government that will be a source of stability and not a source 
of unrest after we successfully prosecute this war effort.
    I need not tell you this will not be easy. But be assured, 
many of us will stand shoulder to shoulder with you in what are 
bound to be some very difficult decisions that you and the 
President are going to have to make.
    On that score, I would like to personally thank you for 
keeping me and the ranking member, who is still my Chairman, 
and all the committee informed. There has never been a time, 
speaking for myself, that I have ever called you or called any 
of your people that I have not gotten an immediate response, 
and the same can be said for Senator Helms and I expect for all 
of our colleagues here.
    I think, to state the obvious, that is awfully important to 
keep this kind of cohesion which you have put in place. I also 
want to publicly acknowledge how much I personally appreciate, 
and Senator Helms can clearly speak for himself, the personal 
briefings he and I together and separately have received from 
the President of the United States. This has not been an on 
again, off again thing. It has been roughly about once every 
week or 10 days he has us down there, and is not only telling 
us what is going on, but genuinely asking for input.
    I have been impressed. I have been impressed, so impressed 
I have said it publicly. Some of my colleagues wonder whether 
or not I am under his influence. I have said to them what I 
will say to you: As long as he is right, I am for him. I am for 
him, and I think he is doing it the right way.
    So Mr. Secretary, there are going to be--as you said, you 
know better than we, having prosecuted another difficult war, 
this one I think is even more complicated. There is going to be 
some tough decisions. It would be really easy to Monday morning 
quarterback. I commit to you that I will not do that, and I do 
not think most of us up here will do that. We know this is 
risky business and this is very difficult.
    One example is, if the newspaper is correct, Tuesday's 
successful mission in Kabul shows the importance of our air 
power and the partnership with folks on the ground who are in 
the coalition of those assets working together. If the initial 
reports are accurate, we targeted and killed 22 hard-core 
terrorists linked to bin Laden in a single pinpoint strike, 
based on human intelligence provided from ground assets.
    That requires both things. It requires the air and the 
coalition. We carried this out without jeopardizing U.S. 
servicemen unnecessarily and without causing any collateral 
damage. So they are the success stories and they are 
significant.
    We are going to hear the occasional mistake. I hope the 
American people can keep this in perspective and I believe they 
will; that there will be some collateral damage, but that is a 
decision, a tough decision the President is going to have to 
constantly make.
    So Mr. Secretary, you have just returned from Shanghai, 
where you said, as you have the ability to do better than 
most--you capsulized in one sentence how the world has changed. 
You said, ``Not only is the cold war over.'' You said, ``The 
post-cold war is over.''
    Out of the tragedy of 9/11, and from the President's 
initiative and your diplomacy building this worldwide 
coalition, I believe we have a number of opportunities to 
enhance our relationships with countries from Russia to China 
and possibly even change on the margin the dynamics with Iran. 
I believe if we succeed in seizing these opportunities, 
continuing the path the President has put us on, the 21st 
century has the significant possibility of being safer than the 
20th century; and you and the President, if that occurs, will 
have made an historic contribution to the wellbeing of this 
Nation.
    I yield to my friend Senator Helms.
    Senator Helms.  Thank you, Mr. Chairman.
    As a matter of personal privilege, let me say that this 
morning at about 6:15 when I was reading the newspapers I ran 
across an item about the distinguished chairman of this 
committee. I said, this cannot be so, because both papers that 
I saw implied strongly, if they did not state outright, that 
Joe Biden has broken with bipartisan support for the President.
    Now, Senator Biden and I attend a lot of meetings at the 
White House and sit side by side with the President, and I know 
how this fellow operates and I know that those reports were not 
accurate. I understand how first-hand accounts can happen, but 
I want to do what the chairman is not going to do, I am sure, 
and I want to say that these reports were taken out of context 
and were not accurate.
    The Chairman.  Thank you, Mr. Chairman.
    Senator Helms.  Now, also on a matter of personal 
privilege, Mr. Secretary, I have got a long memory and I 
remember sitting to the right of a President named Ronald 
Reagan, and there was a handsome young Army general testifying 
with all of his charts and everything and he was doing an 
impressive job. The President and I had a habit, he would write 
a little word or two. He said, ``Like,'' question mark? I said, 
``Yes.'' It went back and forth and he said, ``Bright future.'' 
I wrote back, ``I hope so.'' Then he wrote, ``Joint Chiefs.'' I 
said, ``Chairman.''
    Well, it turned out that way. But President Reagan is not 
in a position to speak for himself, but I think the greatest 
compliment that can be paid you, sir, is what he thought of 
you.
    So all of us appreciate your coming to be with us this 
afternoon, especially in the light of your heavy schedule. I 
want to echo, perhaps not as eloquently as Joe did, that you 
are doing a fine job under the most difficult of circumstances.
    In the 6 weeks since the terrorist attacks of the September 
11th morning which all of us remember, the President and his 
national security team, with your leadership on the diplomatic 
front, have succeeded in building a significant coalition in 
the war against terrorism. The President was on the mark when 
he declared that the United States must root out all of the 
terrorists and those who support them, wherever they may be 
found, not just terrorists in Afghanistan, but in Iraq and 
Syria and the West Bank and all the other places.
    Now, Mr. Secretary, you and the President have emphasized 
many times over and over again that we must not sacrifice our 
long-term interests for the sake of coalition-building. 
Building our relationship with the Iranians before they 
renounce their support for terrorist organizations or turning a 
blind eye to China being one of the world's leading suppliers 
of weapons of mass destruction to those rogue states located in 
the Middle East would be the wrong thing to do in my judgment.
    Furthermore, we must resist even the urge to modify the 
principled position of the United States regarding Chechnya in 
order to maintain Russian support for U.S. operations in 
Central Asia, or the temptation to gut important U.S. 
nonproliferation laws in an effort to buy Pakistani, Indian, or 
Chinese assistance, because to do so would only hasten new 
threats, new threats to our security interests, and risk future 
attacks inflicting far greater harm and instilling much more 
fear than we can sit here and imagine this afternoon.
    The American people, bless their hearts, have shown their 
strong support for a long-term campaign now in progress to rid 
the world of terrorism before terrorists acquire weapons of 
mass destruction. The recent anthrax attacks have demonstrated 
that we must do whatever it takes, with or without the approval 
of the other nations, to defend America and the American way of 
life.
    Those of us, Mr. Secretary, who have followed your hard 
work have the utmost confidence in you. Your handling of this 
crisis as America's top diplomat has not only reassured the 
American public, but has instilled confidence in and earned 
praise from our friends overseas.
    Thank you for being here this afternoon.
    Secretary Powell.  Thank you, Mr. Chairman.
    The Chairman.  Thank you, Senator.
    Mr. Secretary, the floor is yours.

       STATEMENT OF HON. COLIN POWELL, SECRETARY OF STATE

    Secretary Powell.  Thank you, Mr. Chairman, and thank you 
for welcoming me back to appear before the committee. Let me 
also say that I happened to read the same newspaper articles 
that Senator Helms did this morning and when I saw the glaring 
headline I said, ``Whoa, wait a minute, this cannot be right.'' 
So I immediately asked my staff to get the transcript of what 
you had said, and I saw that it was not right, that it was 
clear that you were speaking in a stereotypical, what other 
people think. Then at the tail end of the sentence that was 
taken out of context, your final words were ``And that's not 
right.''
    So I was much relieved because I knew that could not have 
been your view, and I am appreciative, as I have been for these 
past weeks and since I became Secretary, of the support, Mr. 
Chairman, that you have provided to the Department, that you 
have provided to me on a personal basis. I want to express to 
you and to Chairman Helms and the other members of the 
committee the same sentiment. Thank you for your support and 
especially thank you for the solid bipartisan support that the 
administration has enjoyed from the committee during this 
crisis that began on the 11th of September.
    The Chairman.  Thank you.
    Secretary Powell.  It means a lot to us. It shows a lot to 
the world about what kind of a Nation we are, what kind of a 
people we are. In the midst of all the anthrax scares and other 
things that are going on, we are here on Capitol Hill to 
conduct the people's business. We will not be frightened, we 
will not be scared. We will get on with the people's business, 
and I am pleased to be here today to participate in that solid 
historic democratic process that we enjoy and that we believe 
in to the depth of our hearts.
    The Chairman.  Thank you for your comment and your 
confidence. I appreciate it.
    Secretary Powell.  Mr. Chairman, if I may I would like to 
provide a written testimony for the record and I would like to 
summarize it very briefly.
    The Chairman.  Without objection, it will be placed in the 
record.
    Secretary Powell.  Mr. Chairman, we will always remember 
the 11th of September, where we all happened to be on that day. 
It is seared into our individual memories. It is seared into 
our individual souls. I was in Lima, Peru, at breakfast with 
the President of Peru, President Taledo, when the notes were 
handed to me, two notes in a quick row, making it clear that it 
was not an accident, but my country had been hit by the worst 
terrorist act we had see in our history.
    It was a long day for me as I got on my plane and flew all 
the way back from Peru, unable to communicate with anybody in 
Washington until I arrived and joined the President in the 
White House with the other national security advisers to the 
President.
    When I walked into the Situation Room and joined the 
President, I found a President who was seized with the mission 
that had been handed him that day, a President who had already 
seen that a challenge had been presented to him that would 
change the entire nature of his presidency and his 
administration, and a President who took up that challenge I 
think in a bold way, a way that history will long remember.
    He knew right away that he not only had to go after the 
perpetrators of these terrible attacks against us, he knew also 
that we had to go after terrorism. It would not be enough just 
to deal with these perpetrators who were soon identified as the 
al-Qaeda network and Osama bin Laden, but in order to be the 
kind of leader that he is, in order to show leadership to the 
world, we had to undertake a campaign that goes after terrorism 
in all of its many forms around the world.
    It is a campaign that has many dimensions to it. It is a 
campaign that some days involves financial attacks, other days 
law enforcement attacks, intelligence attacks, and sometimes, 
as we see now in Afghanistan, military attacks. We have to 
secure our borders. We have to do a better job of talking to 
other nations about who travels across our borders. We have to 
make sure we go after the financial networks that support 
terrorist activity.
    To do that, we built a broad coalition, a coalition of 
nations that came together to respond to this attack, not just 
against America but against civilization. Hundreds and hundreds 
of people who were not Americans died in the World Trade 
Center. Five hundred Muslims died in the World Trade Center. 
Osama bin Laden and al-Qaeda killed Muslims on the 11th of 
September, 2001, in New York City, as well as men and women 
representing every race, color, and creed on the face of the 
Earth and a large number of American citizens.
    We are going after them with this broad coalition to make 
sure that they are brought to justice or justice is brought to 
them. It was an attack against civilization. Civilization must 
respond.
    People have said, well, you know, it was an attack against 
America really, not civilization. No, it was not. It was the 
action of an evil man and it was an evil act. It bears no 
connection or relationship to any faith. There is no faith on 
the face of the Earth that would sanction such an evil strike 
against innocent people, and we cannot let Osama bin Laden 
pretend that he is doing it in the name of the Iraqi people or 
the Palestinian people. He does not care one whit about them. 
He has never given a dollar toward them, he has never spoken 
out for them. He has used them as a cover for his evil, 
criminal, murderous, terrorist acts, and he has to be seen in 
that light.
    We have put together a grand coalition. People have said, 
well, coalitions sometimes come with problems; when you bring 
all these people together, do you not have to take into account 
all of their interests and do not these kinds of coalitions 
sometimes hamstring the President in his ability to do what he 
thinks he has to do?
    The answer to the question is the President has not given 
up any of his authority. There are no arrangements within this 
coalition which in any way, shape, fashion, or form constrain 
the President in the exercise of his constitutional 
responsibilities to defend the United States of America and to 
defend the people of the United States. So that should not be a 
concern on anyone's mind.
    At the same time, without this coalition the President 
could not do what needs to be done. Without this coalition, we 
could not be cooperating with 100 nations around the world on 
going after financial networks of terrorist organizations. 
Without this coalition, we would not have countries that were 
supporting us in the prosecution of our military campaign, 
giving us overflight, giving us basing rights, and contributing 
military forces to fight along side American forces.
    So this is a coalition that is of enormous value. What is 
unique about this coalition, what makes it different than any 
other coalition anyone has ever put together, is that, except 
for about three or four countries, every other country on the 
face of the Earth has signed up. They have signed up in many 
ways, whether it was NATO, 19 nations invoking article 5 of the 
Washington Treaty, the NATO Treaty, for the first time in 
history, saying that an attack on one is an attack on all and 
that attack in New York City, Washington, and Pennsylvania was 
an attack on one and it is an attack on all of us, and NATO has 
responded.
    The United Nations Security Council, the United Nations 
General Assembly, the OAS. The Rio Treaty was invoked, the 
ANZUS Treaty was invoked. The Organization of Islamic 
Conference had a meeting earlier this month and 56 Muslim 
nations came forward and said this was a dastardly attack which 
does not represent Islam, it is a disgrace, the United States 
is right to see it as an attack on civilization and an attack 
on America.
    One more point I would make about the coalition is that, 
whether we want it or not, it showed up. Within 24 hours NATO 
acted. Before I could really get on the phone and ask them, 
they were there. The U.N. showed up within 48 hours. A lot of 
people pat me on the back and say, good job with the coalition. 
I have to sort of cock my head slightly. They all showed up. 
Our friends showed up when we needed them.
    People have also said, well, this coalition will start to 
come apart after a while, they will not stick together. Well, 
they have stuck together. It is now 6 weeks. The President just 
returned from an important meeting in Shanghai, the APEC 
conference, where 21 Asian and Pacific nations all came 
together to talk about economic issues, to talk about the world 
trading system, to talk about breaking down barriers to trade. 
But the first thing they talked about was terrorism, and all 21 
of these nations reaffirmed their support for what we are 
doing.
    As my colleague Don Rumsfeld often says, it is not just a 
single coalition; it is a shifting set of coalitions, really, 
that have come together. Members will do different things at 
different times in the life of this coalition. Some member 
nations have said, ``Look, all we can do really is give you 
political and diplomatic support; we do not have the 
wherewithal or because of our political situation we cannot do 
much more than that.'' Others have said, ``We will participate 
fully on intelligence-sharing and financial digging up of 
terrorist organizations, and we will provide military assets as 
well.''
    What we have said, ``Let each contribute according to your 
ability to contribute, your willingness to contribute, and the 
situation you face within your country.'' So far, after 6 
weeks, this coalition is gaining strength, not getting weaker.
    Our attention now is focused on the military campaign in 
Afghanistan. I am so proud of the men and women in uniform that 
I used to be so closely associated with as they once again go 
in harm's way in such a professional manner to serve the 
American people and in this case to serve the cause of 
civilization. They are doing a fine job, but, as the chairman 
noted, it is going to be a tough campaign. It is a tough 
campaign, tough in the air and even tougher on the ground as we 
use, not American forces directly, but other forces who are 
like-minded and recognizing that the Taliban must be removed. 
It is quite difficult to coordinate them, but we are working on 
that very hard, and with each passing day the coordination 
links between the air campaign and what is happening on the 
ground become tighter, become more direct, and are moving in 
the right direction.
    Our work in Afghanistan, though, is not just of a military 
nature. We recognize that when the al-Qaeda organization has 
been destroyed in Afghanistan and as we continue to try to 
destroy it in all the nations in which it exists around the 
world and when the Taliban regime has gone to its final reward, 
we need to put in place a new government in Afghanistan, one 
that represents all the people of Afghanistan and one that is 
not dominated by any single powerful neighbor, but instead is 
dominated by the will of the people of Afghanistan.
    We are working hard at that. Ambassador Richard Haass, the 
Director of Policy Planning at the State Department, is my 
personal representative working with the United Nations, 
Ambassador Brehini, the King, and others to try to help Afghan 
leaders around the world find the proper model for the future 
Afghanistan.
    But we have got to do more than that. We also have to make 
sure that when the Taliban regime is gone we remain committed 
to helping Afghanistan finally find a place in the world, by 
helping its people build a better life for themselves, by 
making sure they get the food aid and other aid they will need 
to start building decent lives for themselves and for their 
children.
    While we are going through this conflict period now and 
thinking about the future, we also have to make sure that we 
are pumping as much humanitarian aid into the country now as 
winter approaches, so that we do not leave anybody at risk of 
starvation. There are lots of reports about that, but I can say 
that the reports I have this morning suggest that we have got 
quite a bit of food going in, blankets going in. It is still a 
tenuous situation, but the situation has improved in recent 
days and I think it will improve in the days ahead.
    We are giving it the highest priority, working with our 
friends in Pakistan, Uzbekistan. I was pleased to see the 
foreign minister of Uzbekistan in the hearing room today. It 
gives me the opportunity to thank him and his government for 
the terrific support that they have provided to us.
    The chairman mentioned that new strategic opportunities may 
come out of this crisis. I think that is absolutely right. We 
have seen Russia do things in the last 6 weeks that would have 
been unthought of 5 or 6 years ago even, long after the Soviet 
Union was gone. We are working with the Russians to take 
advantage of these new opportunities.
    At the APEC meeting in China, my other dear chairman, you 
will be pleased to know that while we were talking about trade 
and economic development with the People's Republic, we made 
sure that they understood that, even though we want to move in 
that direction, we are not forgetting about human rights, we 
are not forgetting about religious freedom. The President 
talked about the Dalai Lama, he talked about relations with the 
Vatican, and we have seen improvement already with respect to 
dialogue between the Vatican and Beijing just within the last 
24 hours. We talked about proliferation. We told them what we 
do not like about what they do with respect to rogue nations.
    So Senator Helms, I can assure you and assure all the other 
members of the committee that we are clear-eyed about this 
coalition-building, we are clear-eyed about the campaign we 
have embarked upon. We understand the nature of some of the 
regimes that we are having some opening discussions with and 
they are not going to get in on the cheap: we are against the 
Taliban, but you have got to tolerate our actions with respect 
to other terrorist organizations that we like. It will not 
work. The President says you have got to choose now to move 
into a new world where you no longer support those kinds of 
activities if you want a better shot at good relations with the 
United States of America.
    So I think we are off on a noble cause. I think it is a 
cause that is just, it is a cause that we will prevail in 
because we are doing the right thing.
    Let me close by once again thanking the committee for the 
support that they have provided to us. I know how much it means 
to the President for you all to visit with him every week or 
so. Let me once again express my admiration for the men and 
women in uniform who are doing such a great job. Let me also 
express my admiration for the men and women of the State 
Department and the other civilian agencies of the U.S. 
Government who are serving in missions all around the world, 
sometimes in great danger, sometimes at the risk of their life. 
They are doing a terrific job, and I know that you share my 
admiration and pride in the men and women of our diplomatic 
service.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Powell follows:]


        Prepared Statement of Secretary of State Colin L. Powell

    Mr. Chairman, Senator Helms, members of the Committee, I am pleased 
to appear before you today to update you on our Nation's diplomatic 
response to the September 11 terrorist attacks, as well as to report to 
you on my recent trip to Pakistan, India, and China.
    Before I begin, I would like to take a moment to commend you, Mr. 
Chairman, along with this Committee and, indeed, the entire American 
Congress, for your courageous response to this national tragedy. I was 
deeply moved, as I believe the Nation was deeply moved, at the sight of 
our elected representatives standing on the Capitol steps the evening 
of the tragedy, singing ``God Bless America.''
    The spirit of bipartisanship and cooperation which has emerged, on 
Capitol Hill and throughout our Government, has sent a powerful signal 
of America's resolve to the American people, to our friends around the 
world, and, just as importantly, to our foes.
    Mr. Chairman, the perpetrators of what President Bush has described 
as ``evil, despicable acts of terror'' struck not only at the United 
States, they struck at the world. They struck at all who believe in 
tolerance and freedom.
    Citizens of some 80 countries died that day in New York, in 
Virginia, and in the Pennsylvania countryside. Citizens of all 
countries recoiled in horror at the magnitude of the atrocity committed 
on American soil.
    We have responded to these attacks with a campaign directed against 
the perpetrators of September 11, and the nations and organizations 
that help them--al-Qaeda, its leader Osama bin Laden, and the Taliban 
regime in Afghanistan that harbors and supports them.
    But our fight does not end with al-Qaeda and the Taliban regime. As 
President Bush told a joint session of Congress September 20:

          Our war on terror begins with al-Qaeda, but it does not end 
        there. It will not end until every terrorist group of global 
        reach has been found, stopped, and defeated.

    In our campaign, we are deploying every tool we have--political, 
diplomatic, intelligence, law enforcement, and financial, along with 
appropriate military means.
    Because terrorism is a global problem, the response to terrorism 
must be global. We need the cooperation and support of a broad 
coalition of nations to use these tools effectively.
    The coalition we have built does not tie President Bush's hands. It 
magnifies his efforts. The coalition is a force multiplier in our 
campaign--for all the tools we are using.
    I am here today, Mr. Chairman, to update you and the committee on 
the diplomatic aspects of our campaign.
    We have a good story to tell. Almost every civilized country has 
joined our effort--our European and Canadian allies, Western Hemisphere 
neighbors, and Asian and Oceanic partners, as well as our Middle 
Eastern, Gulf, and African friends. Russia and China have been 
remarkably forthcoming as active supporters of the campaign.
    NATO for the first time in its history invoked Article V of the 
Washington Treaty, declaring the 11 September attack an attack on all 
members. The Rio Treaty signatories and Australia also invoked 
collective defense articles of our treaties.
    Less than 48 hours after the attacks, the United Nations Security 
Council and General Assembly passed resolutions condemning the attacks, 
and supporting action against those responsible and the governments 
that aid them.
    The OAS, ASEAN, APEC, and regional and religious organizations 
representing the vast majority of Muslims--including the Arab League, 
the Gulf Cooperation Council, the Organization of Islamic Conference, 
and the Organization of African Unity--have condemned the attacks and 
offered assistance.
    Leading Muslim clerics, such as the Sheikh of al-Azhar, have joined 
in the chorus of condemnation.
    Mr. Chairman, I can only name a few of the many supporting nations 
and organizations, but the message is clear. The world rejects Osama 
bin Laden's vile effort to cloak his crimes in the mantle of Islam. The 
world rejects his efforts to hijack a great religion in the name of 
murder.
    So the coalition has come together, and the work has begun across a 
broad front.
    The effort to stanch the flow of money to terrorists is one vital 
front in our campaign. Here, we are making good progress.
    Security Council Resolution 1373, adopted under Chapter VII of the 
U.N. Charter, requires members to act against terrorists' movements, 
financing, and operations. The Security Council has also formed a 
counterterrorism committee to implement 1373, chaired by the British, 
and with expert advice from the United States and others.
    President Bush has issued an Executive Order freezing the assets of 
27 individuals and entities. On October 12 an additional 39 names were 
added to this list. The total list of 66 names includes 17 groups and 
49 individuals. We anticipate adding additional names in the future.
    We have frozen approximately $4 million in assets since September 
11 and more is under review. Hundreds of additional accounts are 
presently being examined.
    Over 140 countries have voiced their commitment to the campaign 
against terrorist financing, and over 70 countries are actively working 
to detect and freeze assets related to terrorists identified in the 
Executive Order, Security Council Resolutions, or their own files.
    Another front is the intelligence and law enforcement component--
making sure that all the nations of the world that have information 
about these individuals start to share it in a more effective way. 
After little more than a month, we are seeing success.
    I must also say a word about our brave men and women in uniform, as 
they take the battle to al-Qaeda and Osama bin Laden in Afghanistan. I 
am not here to testify on the military aspects of the campaign, but I 
must salute their bravery and commitment to duty.
    Mr. Chairman, we are not only combating al-Qaeda and the Taliban. 
We are also acting to ease the suffering of the Afghan people. We 
estimate five to seven million Afghans are at risk due to drought, 
famine, Taliban misrule, and the onset of winter. The United States was 
the largest donor of assistance to the refugees before September 11, 
and in response to the increased need we have announced $320 million, 
in cash and commodities, to aid the Afghans. Other countries have 
pledged an additional $466 million. We have also air-dropped some 
500,000 humanitarian daily rations.
    We are working with U.N. agencies such as the World Food Program 
and with private voluntary organizations to make sure this assistance 
gets to the people who need it, in Afghanistan and in surrounding 
countries where millions of refugees have fled.
    While we are waging today's campaign, we are also looking ahead to 
the future of Afghanistan. We are working with coalition partners and 
with the United Nations, including Ambassador Lakhdar Brahimi, the 
Secretary General's Special Representative for Afghanistan.
    The goal is the formation of a broad-based Afghan government that 
represents all geographical and ethnic backgrounds, not just one party 
or one group, and that will end Afghanistan's role as a haven for 
terrorists, permit reconstruction, and make refugee return possible.
    To secure these goals, we are working with Afghan groups and the 
international community to address key political, reconstruction, and 
security issues. Afghan groups--including the Northern Alliance, Rome 
Group, Southern Pashtuns, and others--must come together to form a 
broad-based coalition capable of assuming administrative functions. 
There is, however, no place in the new Afghan government for the 
current leaders of the Taliban regime.
    We are also working to get our message out, that our campaign is 
against terrorism, not Muslims. American officials are appearing daily 
in relevant media, including on al-Jazirah television. We are ensuring 
that the President's statements and speeches are transmitted worldwide, 
within 6 hours of delivery.
    To give you a flavor of what we are doing, let me take one ``day in 
the life.'' On October 20, Deputy Secretary Armitage was interviewed by 
the Indian national daily Hindu; Under Secretary Grossman, USAID 
Administrator Natsios and Acting PRM Assistant Secretary Kreczko took 
questions from Arab journalists in London via DVC; Under Secretary 
Grossman was interviewed by N-TV of Russia; EB Assistant Secretary 
Wayne was interviewed by MBC, LBCI and the Abu Dhabi Satellite Channel; 
EUR Assistant Secretary Jones appeared on Turkish Star TV; and NEA 
officials met Palestinian and Israeli journalists in the United States 
on the ``Peace Partners'' program.
    Finally, Mr. Chairman, I would like to take a moment to describe 
the efforts we are pursuing to ensure the security of our people 
abroad.
    We have added special agents to posts under critical and high 
threat, increased local and host government protection, and temporarily 
drawn down staff at certain posts under critical threat.
    We have increased our vigilance toward chemical and biological 
threats, and initiated a chemical biological threat program.
    Our Fiscal Year 2002 budget request for some $1.3 billion is 
essential to fund secure new embassies, increase perimeter security, 
and add to our worldwide security readiness. We look forward to working 
with the Congress to secure this critical funding.
    Mr. Chairman, it was in the pursuit of these counterterrorism 
objectives, as well as other important foreign policy interests, that I 
traveled to Islamabad, New Delhi, and Shanghai.
    In Pakistan, I thanked President Musharraf for his bold and 
courageous actions since September 11. I emphasized America's support, 
and the support of the international community, for Pakistan's role in 
the campaign against terrorism. I also assured him that American 
support would extend to the financial and economic measures needed to 
help Pakistan get back on its feet again, and that those measures would 
come not just from America but from other coalition members as well.
    President Musharraf's commitment to the campaign against terrorism 
is steadfast, but he also raised the Pakistani public's concerns about 
extended bombing operations in Afghanistan. I assured him that 
targeting has been judicious, with every effort made to reduce civilian 
casualties.
    In India, I thanked Prime Minister Vajpayee, Foreign Minister 
Singh, and other senior officials for India's prompt offers of 
unconditional cooperation, and for all the support that India has 
provided and continues to provide to the campaign. Both the United 
States and India were quick to realize the attacks of September 11 were 
attacks on the world, and we have stood shoulder to shoulder in this 
fight against terrorism.
    In both countries, we discussed how to ease the plight of the 
Afghan refugees and shared thoughts on how to begin the process of 
rebuilding Afghanistan.
    Mr. Chairman, the campaign against al-Qaeda, Osama bin Laden, and 
those who harbor them is our top priority, and it was largely in order 
to better wage that campaign that I traveled to the subcontinent.
    But, even while we pursue this campaign, we cannot allow our 
foreign policy to be hijacked by terror, to the exclusion of other 
important interests, including our enduring interests in South Asia.
    In that spirit, my talks in Pakistan and India also covered ways to 
expand cooperation and deepen our relations, as well as ways to enhance 
stability between those two great countries.
    I assured President Musharraf that our improved relationship is not 
just a temporary spike but, as a result of the actions taken by 
Pakistan over the previous five weeks, the beginning of a strengthened 
relationship that will grow and thrive in the years ahead.
    On the domestic front, President Musharraf stressed that improving 
the economy is his priority, reaffirmed his commitment to hold 
elections in October 2002, and pledged cooperation on nonproliferation 
issues.
    Regarding economic and commercial issues, we agreed on the 
importance of continued economic reform, and the United States 
reaffirmed our commitment to work both bilaterally and multilaterally 
to address Pakistan's enormous debt burden.
    In New Delhi, my conversations with Prime Minister Vajpayee and 
Foreign Minister Singh covered the broad range of our relationship and 
the steps we are taking to transform it even further. Well before 
September 11, President Bush made it clear that putting our 
relationship with India on a higher plane is one of his highest 
priorities. As two great, multi-cultural democracies that believe in a 
common set of values, we are natural allies.
    With the strong support we have received from the Indian government 
since September 11, we are seizing the opportunity to accelerate the 
pace of change. I am pleased that, during my visit, Prime Minister 
Vajpayee accepted and invitation to visit Washington next month.
    In both countries, I urged restraint in their nuclear and missile 
programs and the need to avoid onward proliferation.
    My trip occurred amidst the highest tension we have seen in almost 
a year along the Line of Control in Kashmir. I emphasized to both sides 
the need for military restraint and the resumption of bilateral talks 
between India and Pakistan on all issues, including Kashmir.
    I concluded my trip in Shanghai, where I attended a meeting of APEC 
foreign ministers and, later, joined President Bush at the APEC Leaders 
Meeting.
    Our overriding focus in Shanghai was to bolster the international 
response to the events of September 11, both in the President's 
bilateral meetings and in the APEC context.
    The APEC Leaders assembled in Shanghai put APEC squarely on the 
record against terrorism, with their Statement on Counterterrorism. 
This was a remarkable step, given APEC's traditional reluctance to 
venture outside the economic realm, and a strong signal of the unity of 
the international community.
    APEC Leaders called for the early signing and ratification of all 
anti-terrorist conventions, including the International Convention for 
the Suppression of the Financing of Terrorism, and pledged to implement 
U.N. Security Council resolutions 1368 and 1373. They also mandated 
cooperation against terrorism encompassing finance, customs, 
immigration, transportation, energy and infrastructure activities.
    In that regard, Mr. Chairman, I look forward to working with the 
committee to act quickly on the two conventions we have not ratified, 
Suppression of the Financing of Terrorism and Suppression of Terrorist 
Bombings. I know the Senate held hearings on those two conventions 
yesterday, and I appreciate your attention to this matter.
    APEC's importance as an economic forum was also increased by the 
September 11 attacks. Since its founding, APEC has been an important 
vehicle for encouraging the adoption of market-oriented trade, 
investment, and financial policies by countries that together represent 
two-thirds of global GDP and over half of world trade. Now more than 
ever, these policies are critical for ensuring the economic vitality 
needed to restore confidence in the global and member economies, and to 
support our goals of fostering stable, prosperous democracies in the 
region.
    APEC Leaders sent a strong signal of support for the global economy 
with their commitment to launch a new round of WTO talks next month and 
their adoption of the Shanghai Accord, an American initiative to 
revitalize APEC's role in promoting trade and investment 
liberalization.
    President Bush and I also held a series of bilateral meetings in 
Shanghai.
    In our meetings with the Chinese, including President Bush's 
meeting with Chinese President Jiang Zemin, we sought Chinese 
commitment to increased cooperation against terrorism, including the 
long-term law enforcement effort to eradicate financing of terrorist 
organizations and the need for immediate humanitarian assistance to 
Afghan refugees.
    We also discussed ways to honestly address our differences so that 
our areas of difference do not prevent us from cooperating on other 
issues of mutual importance. I am confident that as we advance our 
counterterrorism cooperation with China we will be in a stronger 
position to sustain meaningful consultations with the leadership in 
Beijing on subjects such as Taiwan, nonproliferation, and human rights.
    Russian President Putin's reaction to September 11 marked the 
beginning of a new period in our bilateral relationship, one in which a 
new spirit of cooperation on counterterrorism may also make many of the 
tough issues on the agenda more resolvable. Indeed, in the wake of 11 
September, it has become clear that not only is the Cold War over, but 
the post-Cold War period is also over.
    In President Bush's meeting with President Putin, and mine with 
Foreign Minister Ivanov, we discussed the future of post-Taliban 
Afghanistan. We also had a good discussion on the new strategic 
framework.
    The President's meeting with Japan's Prime Minister Koizumi, while 
focused primarily on the campaign against terrorism, also covered 
global economic developments. President Bush urged the Prime Minister 
to remain steadfast in his ambitious reform agenda for Japan's 
faltering economy. He emphasized the importance of Japanese economic 
recovery to both our nations, and the world.
    Also in Shanghai, President Bush had an excellent meeting with 
President Kim Dae Jung of Korea, who was very forthcoming about South 
Korean support and pledged to provide all necessary cooperation and 
assistance. The two Presidents also discussed our two nation's 
continuing readiness to seriously engage North Korea to bring about 
North-South reconciliation and peace on the Korean Peninsula. The 
United States remains prepared to resume dialogue with the North 
Koreans any time, any place, and without any preconditions.
    In closing, Mr. Chairman, I would like to take a moment to commend 
the men and women of the State Department who are serving in Washington 
and, often in harm's way, in our embassies abroad.
    Our people have helped secure landing and overflight rights from 
more than 50 nations that are vital to our military operations. They 
have pressed host governments to choke off the financial lifeblood of 
terrorist organizations and deny them safe haven. They have helped 
generate and distribute humanitarian aid to the Afghan people and the 
frontline states. And they are working to maintain international 
cooperation on the full range of counterterrorism initiatives ranging 
from fighting money-laundering to improving airport security.
    In Islamabad and New Delhi, I met with the skeleton staffs who are 
working under extraordinary difficult conditions to wage this vital 
campaign against terrorism.
    The President, the American people, and I are counting on them to 
do their duty; and, in the finest tradition of service to our Nation, 
they have risen to the challenge. I am immensely proud of these 
dedicated men and women, and I believe our country should be proud of 
them too.
    Mr. Chairman, our record is strong, but we have only begun. This is 
a campaign that will be measured in weeks, months, and years, a 
campaign that we will pursue with patience and perseverance, in close 
consultation with our friends and allies. As President Bush told the 
Nation on October 7:

          Given the nature and reach of our enemies, we will win this 
        conflict by the patient accumulation of successes, by meeting a 
        series of challenges with determination and will and purpose.

    Mr. Chairman, members of the Committee, we will be patient, we will 
be persistent, and we will prevail.


    The Chairman.  Thank you, Mr. Secretary. I am glad you 
mentioned the last point, because I think people do not realize 
that we have had more diplomats and more members of the foreign 
service killed in the last, I do not know how many years, 5, 6, 
7, 8 years. I must tell you very bluntly, my son, who worked 
for the Justice Department, was assigned to, volunteered to go 
to Pristina and Kosovo to work on their criminal justice 
system. Quite frankly, I wish he had gone with the military, 
literally, not figuratively, because of the difference in terms 
of exposure. But they do take great risks and I appreciate 
that.
    Mr. Secretary, with your permission, I think I technically 
have to go into an executive session here, if I may, to be able 
to move, as our colleagues have all and their staffs have been 
briefed, to vote out some nominees while we have a quorum in 
these confusing days. So I move we move to executive session.
    Senator Helms.  Second.
    The Chairman.  There is a second and we are now in 
executive session.
    [Whereupon, at 2:45 p.m., the hearing was recessed and the 
committee proceeded to other business, then reconvened at 2:47 
p.m.]
    The Chairman.  Mr. Secretary, we will do 7-minute rounds if 
we can to get everybody in as quickly as we can.
    I would like to pick up on two things that you said. One 
is, and I only want to speak to it briefly if you could--if 
not, you can expand on it if you would like. I was quite 
frankly almost close to amazed by how far Putin seems to have 
come in throwing his lot with the West. He seems to have, from 
all the briefings I have gotten, actually stiff-armed his 
military here and stiff-armed some of the browns and reds in 
his government and out of government and made a very--I do not 
think anybody since Peter the Great has made such a significant 
at least initial move to the West.
    I have two questions. One, is it real in your view? Two, 
could you specifically comment, unless it should be done in 
another forum, could you specifically comment on the reports--
not reports--comment on what may have transpired relative to 
his discussions with you or the President on NATO expansion? So 
A, is it real; and B, has his view changed or moderated 
relative to the NATO expansion?
    Secretary Powell.  One, I think it is real, Mr. Chairman. I 
was in all of the meetings, the whole meeting that the 
President had, two meetings really, a dinner meeting and a 
private meeting before. I was in both meetings with President 
Putin. It is clear that President Putin understands that 
Russia's future primarily lies to the West. That is its source 
of inspiration, that is its source of technology, it is its 
source of capital, it is its source of debt relief, it is its 
source of security.
    He of course has to worry about his East and be concerned 
about his East, and he has a deep concern about the South, the 
Stan's as they are often called, not as an enemy threat, but a 
threat of smuggling and other problems and drug trade and 
traffic that come from that part of the world. But he knows 
that, while he has to watch the East and be concerned about the 
South, his future has to be to the West, and I think he is 
acting on that knowledge.
    I also think this is not new knowledge. I think this is 
what drove another Soviet president that I came to know very, 
very well, Michail Gorbachev. Michail Gorbachev knew he too had 
to come to the West, and what was keeping him from coming to 
the West was something called the Iron Curtain. The Iron 
Curtain was keeping them in, not keeping us out. He got rid of 
the Iron Curtain so he could come to the West.
    I remember in 1998, Foreign Minister Shevardnadze giving a 
lecture to all of his foreign ministry officials, and we got a 
copy of the speech, and he said, ``Comrades, look, we have 
wasted all these billions of dollars for all these years and 
what has it gotten us? Friendship with North Korea, North 
Vietnam, and several other busted regimes. What has it cost us? 
The thing we needed the most, a good relationship with the 
West.''
    I think Mr. Putin understands that. I think he was given 
another opportunity to demonstrate that on the 11th of 
September. So on the 11th of September he was the first head of 
state to call President Bush. In that conversation he not only 
expressed his condolences, he said, ``By the way, Mr. 
President, we were running a major military exercise here in 
the Russian Federation; I have just shut it off. I do not want 
any false signals to be out there as you are going through this 
period of challenge and crisis.''
    Then some time later, a few days later, he made his very 
important speech which aligned himself solidly with the 
campaign against terrorism. He also raised the issue of 
Chechnya and we are discussing that with him, but we have not 
given up our concerns about human rights in Chechnya. But we 
want to see if we can help him move into a political process 
that will solve the problem of Chechnya.
    So I think it is for real. With respect to NATO expansion, 
it was discussed. I think that the Russians still have some 
concerns about NATO expansion, but I sense those concerns are 
far less than they were just a few months ago. I think they are 
looking for a way to align themselves with NATO, if not 
necessarily become a member right away or even perhaps at any 
time in the future, but to have a better relationship with 
NATO, finding some sort of way of connecting with NATO without 
being in NATO or a part of NATO.
    I think if we can explore that concept it would make it 
even easier, if we are successful with that concept, easier for 
them to accept any enlargement to the alliance when that comes 
up for decision in Prague in the fall of 2002.
    One point I like to make to my Russian counterpart, Foreign 
Minister Igor Ivanov, who I have now met with eight times. 
Everything I have said to you is reinforced by my discussions 
with Igor. But as I like to say to him: You know, we added 3 
members about 4 years ago and you have better relations with 
those 3 new members than you ever had with them before when 
they were part of--the Warsaw Pact. He has to acknowledge that.
    So I think there is a way to square this circle with 
respect to Russian concerns about the expansion of NATO.
    The Chairman.  I think that is very encouraging. If I have 
a second round, I might pursue that a little bit more.
    Let me ask you my concluding question. You have indicated 
that, and you reiterated today, the President has personally 
stated it to Senator Helms and to me and I am sure to others, 
that we have to be in this for the long haul. We cannot ``drain 
the swamp and let it fill up again.'' To use your words here, 
you said, ``We need to put in place a new government in 
Afghanistan, help Afghanistan with food aid, and so on.''
    Could you update us on the progress--and I realize you are 
doing two things at once here. You are prosecuting a war and, 
wisely, thinking about, a la Roosevelt--I am told during World 
War Two, we have all read that while we were ``losing'' he 
assembled the best minds in the country and said, ``How are we 
going to put together the world after we win?'' This is a 
smaller version, but you are doing both. You are doing both.
    Now, could you update us on the progress you are having in 
assembling this coalition for the long haul, for the long haul 
after we win, particularly what, if you are able to tell us, 
what kind of response you are getting from the Muslim world, 
you are getting from countries that are predominantly Muslim 
countries, their willingness to participate and so on? Would 
you be willing to?
    Secretary Powell.  From our European Union partners, G-7, 
G-8 partners, strong support to participate in the post-Taliban 
Afghanistan rescue operation. I will call it that. The U.N. 
recognizes that it will have to play some kind of role for some 
bridge period until the Afghan government comes into existence 
and can actually function.
    The Chairman.  Do they realize that? Because in speaking to 
Brahimi--I did not speak to him personally--in listening to 
what he had to say, and Kofi's not silence, but not having said 
much on this--have you spoken to them about this?
    Secretary Powell.  I have spoken to the Secretary General 
several times. I will be seeing Mr. Brahimi and some of my 
colleagues have met with him. Maybe my second point on this 
question might deal with the contradiction that you are 
suggesting. There is a debate as to what kind of force might be 
necessary to go in there during this bridge period. Mr. Brahimi 
at this point is not inclined toward a blue-helmeted force. 
Neither is the Secretary General. That takes a lot of time, a 
lot of preparation, to put in a blue-helmet force.
    So maybe you just bring in some peacekeepers who are from 
willing nations, so you do not have to go out and sort of 
recruit all of these people. You just find people who are ready 
to go in there right away and to serve as peacekeepers. I think 
it will be hard to get peacemakers, countries willing to send 
their troops in to fight somebody. But I think once the Taliban 
regime is gone and there is hope for a new broad-based 
government that represents all the people of Afghanistan and 
when aid starts to flow in, I think that will cause most of the 
groupings in Afghanistan to realize this is not the time to 
fight, this is the time to participate in this new world. That 
is our hope.
    The Chairman.  Thank you, Mr. Secretary. My time is up.
    Senator Helms.
    Senator Helms.  Thank you, Mr. Chairman.
    Mr. Secretary, several months ago President Bush nominated 
Otto Reich to serve as Assistant Secretary of State for Western 
Hemisphere Affairs. Now, for one reason or another this 
committee has not been able to give him a hearing even after 
the attacks of September 11, when you and the President stated 
your need for your national security team to be put in place to 
fight and win the war against global terrorists.
    What I want to know is, would you like to see Otto Reich 
confirmed by the Senate?
    Secretary Powell.  Yes, sir, I would. I knew Mr. Reich back 
in the Reagan days, not well. But as I was putting my team 
together I asked Otto to come in and have a chat. We did. We 
had a long talk. He knows the western hemisphere. He knows 
Central and South America, has a great deal of experience. He 
is energetic, he is willing to leave his civilian life behind, 
give up his business and come back in and serve his Nation.
    I went over all of his past history. I looked at the 
documentation. I have looked at some of the accusations that 
have been made against him. I note that he has never been 
charged with anything, only lots of speculation and rumors. I 
was quite confident that Otto Reich would do a superb job and I 
recommended him to the President of the United States, who 
nominated him to the Senate for your advice and consent.
    So, President Bush stands behind Otto Reich. I stand behind 
Otto Reich. Unfortunately, we have not been able to get a 
hearing before this committee for Otto Reich.
    Senator Helms.  Mr. Chairman, I do not want to embarrass 
you in any way, but I want to ask for a show of hands by this 
committee, all Senators who favor the nomination of Otto Reich, 
if you would hold your hand.
    [A show of hands.]
    Senator Helms.  All opposed?
    [A show of hands.]
    Senator Helms.  Did you count them, Mr. Secretary?
    Secretary Powell.  I thought it would be wise not to, Mr. 
Chairman.
    Separation of powers.
    Senator Helms.  Mr. Secretary, this morning I met with 
Prince Idris--is that the way you pronounce the name--of the 
Libyan royal family. He came to my Capitol office, which is all 
I have. The rest of my office is closed down. He expressed 
concern about the proliferation of weapons of mass destruction 
and ballistic missiles in the Middle East. Now, of course his 
mind is on Libya and its programs, but I would like for you to 
give me your opinion about what is the administration doing to 
stem the proliferation of these weapons, not only to countries 
such as Libya and Syria and Iran and Iraq, but to terrorists 
like bin Laden?
    Secretary Powell.  As you know, Mr. Chairman, this kind of 
technology does not come from the K-mart store. It comes from 
countries that have the ability to develop this kind of 
technology and then sell it to states that have often been 
called rogue states, such as the ones you describe, or to 
terrorist organizations, or at least make them available on the 
open market so that terrorist organizations can get at them. 
Sometimes some of this technology comes, frankly, from the 
West.
    In all of our discussions with the countries that we know 
have the capability to do it and have arms sales programs, the 
Russians and the Chinese and the Indians and the Pakistanis and 
others who have the ability to sell this kind of technology, we 
tell them that this is not wise, not prudent, and will be a 
negative factor in your relationship with us.
    For countries like North Korea that also have the capacity 
to sell this kind of technology and proliferate, we have made 
it clear to them that if they want to re-enter a dialogue with 
us this kind of activity must stop. We do not step back from 
this position.
    One of the big irritants we have in our relationship with 
China now is they have not yet satisfied our concerns with 
respect to the November 2000 agreement that they entered into 
with the previous administration. We have a missile technology 
control regime. We have export controls. We have a variety of 
legislative tools that are available to us, and we use all of 
these tools to do everything we can to keep this kind of 
technology, whether it is technology to develop weapons of mass 
destruction or the means to deliver them, out of the hands of 
irresponsible, broken states and out of the hands of terrorist 
organizations or individuals.
    The Chairman.  One more thing that bothers me. Egypt, which 
has always been a friend since I have been in the Senate, and 
Saudi Arabia have yet to clamp down on terrorist financial 
networks within their borders. Now, that fact and the fact that 
the government-controlled press in those two countries are 
still spouting anti-U.S. rhetoric lead me to worry about the 
commitment of our allies in the Middle East.
    Do you have any concern about that?
    Secretary Powell.  Not with respect to either Egypt or 
Saudi, the two you mentioned. Both countries, the leaders of 
both countries, the King and Crown Prince of Saudi Arabia and 
President Mubarak in Egypt, have been strong supporters of the 
campaign against terrorism. They have been there from the very 
beginning. Both Egypt and Saudi Arabia have played leadership 
roles in our efforts. They have responded to every request we 
have put before them.
    There may be more that they can do, especially Saudi Arabia 
since a number of the people involved in the terrorist acts at 
least originated in some way or another from Saudi Arabia. They 
have been very forthcoming with respect to intelligence 
information. We are still working on financial information, but 
they are being responsive.
    I think it is really not fair to characterize them as not 
being supportive. They are very supportive, and I stay in close 
touch with my colleagues both in Egypt and Saudi Arabia. We 
should note that Saudi Arabia many years ago disavowed Osama 
bin Laden, took away his citizenship. As soon as the crisis 
began the 11th of September, within a few weeks time, Saudi 
Arabia broke diplomatic relations, one of the three countries 
that still had diplomatic relations with the Taliban regime. 
They broke those relations, and they have been very supportive.
    They were especially supportive at the Organization of 
Islamic Conference meeting on the 10th of October by pushing 
for a joint statement that was supportive of our efforts, and 
we can count on that kind of support as well from President 
Mubarak.
    Senator Helms.  Thank you, sir. My time is up.
    The Chairman.  Senator Kerry.
    Senator Kerry.  Thank you, Mr. Chairman.
    Mr. Secretary, thank you very much, on behalf of all of us, 
for your remarkable continued service, and we are grateful to 
you for the time and effort and leadership that you are 
providing us at a critical time. Not the first time you have 
done so, either.
    Mr. Secretary, I have a number of questions. The first one 
I wanted to ask you is regarding the concerns many of us have 
about the potential of a growing humanitarian disaster in 
Afghanistan. I know you said yesterday in the House that there 
are difficulties with it. I wonder if you would share with us a 
little bit more here. I think we need to augment our effort. I 
think the UN Security Council Permanent 5 need to really step 
up on this, as well as the governing situation in Afghanistan. 
But could you share with us how we are going to respond to this 
as winter sets in? What are the difficulties? Is there a way we 
can be helpful, and how do you see this unfolding?
    Secretary Powell.  First, Senator Kerry, you are giving us 
terrific support. As you know, the President has allocated 
another $320 million to this effort. The Defense Department has 
air dropped something like 800,000 rations, the ubiquitous 
yellow bags that now everybody has seen on their television 
sets and in the newspapers. We are working with the World Food 
Program, the United Nations relief organizations.
    Just in the past 24 hours there has been an improvement in 
the tonnages of food getting in.
    Senator Kerry.  Is that by truck?
    Secretary Powell.  By truck for the most part.
    We expect that to even improve more in the next several 
days with some new openings coming down out of Uzbekistan. I 
had the chance to speak to the Foreign Minister about that a 
few moments ago. So things are improved.
    There were a number of reports that the Taliban had taken 
over warehouses or had stopped distribution. The latest 
information is that the Taliban leadership has now returned 
those facilities back to distribution agencies. It is still not 
a good situation. We are counting on Afghans what have worked 
for these NGO's for long periods of time to stay on the job and 
do the distribution.
    So I do not want to suggest that the problem is solved. We 
have to manage it every day and we do. Every morning I am 
briefed by the AID Administrator, Mr. Natsios, and every day my 
staff gives me a series of charts and briefings that I then 
show to the President on where we are with respect to the 
tonnages that we have gotten in, the air drops that may be 
required beyond just packages, but bulk air drops that might be 
required, new avenues that are opening up to get the food in.
    Some days an avenue closes and things get bad for a day or 
two. Then it opens again. But as of yesterday, the tonnages 
going in were up to the level we needed for them to go in and 
to keep going in at that level in order to deal with the 
problem that you have mentioned.
    Senator Kerry.  Are we getting adequate support on the 
Pakistan border?
    Secretary Powell.  We have had to do a little more work on 
that. The Pakistanis have been concerned about the number of 
refugees flowing across into Pakistan. They hold the largest 
number of refugees now of any country on the face of the Earth. 
So they do have concerns about that. But I think the U.N. is 
working closely with the Pakistani government.
    If I can take this opportunity also, Senator, to say a word 
about the Pakistani government and the courageous and bold 
action that they have taken under the leadership of President 
Musharraf to be a part of this coalition and to cut their ties 
with the Taliban, to realize that they have now to join the 
coalition for a new Afghanistan. They have done a terrific job 
and responded to our every need.
    Senator Kerry.  Well, I think the committee would join you. 
I think every member of the committee would join you, and we 
want it to be very clear to the government that we appreciate 
and understand it. It is not without its risks. I think there 
are many other things we need to do to buttress that decision 
now.
    With respect to that kind of decision, Mr. Secretary, you 
have mentioned a number of times publicly that both Saudi 
Arabia and Egypt have assisted us. We have certainly been 
involved with their governments for many years. Is it fair for 
us, however, at this point in time to expect more in terms of 
their public statements? I mean, even though you have said what 
you have said, many observers have written about what they have 
called the deafening silence and the lack of sort of visibility 
here.
    We all understand there are tensions. In Saudi Arabia there 
has been some funding and there has been some--the mosques and 
schools presenting a new generation, many of whom are in a 
place we would rather they were not politically. Is it fair for 
us now to raise some of these governance issues in the interest 
of addressing the long-term problem of trying to deal with the 
``swamp'' of terrorism?
    Secretary Powell.  I would think it is quite appropriate 
for us to raise some long-term issues that go beyond this 
crisis with respect to some of the school systems that are 
being funded in the Arab world, where youngsters are learning 
extremism in those schools and they are not learning their A's, 
B's, and C's on how to get along in a twenty first century 
economy. This will hurt those countries in the long run and 
raise up a generation of youngsters who may well be a threat to 
those countries.
    So I think it is quite appropriate for us to discuss that 
with them aside from this crisis. This crisis gives it new 
immediacy, and I think you are quite right.
    Mention was also made a moment ago about some of the 
terrible things that are often said about Americans in their 
press, government-controlled press. I would like to show you 
some of the articles about me out of some newspapers from the 
region. They did not brighten my day when I read them.
    Senator Kerry.  We will trade you the ones that are written 
about us.
    Secretary Powell.  At the same time you have to be careful 
here, because you cannot say because you are in a coalition 
relationship with us all the articles have to be kind and 
friendly. If I could make that happen in Washington, I would 
feel that to be a momentous achievement. I think we have to be 
a little careful before we go a little too overboard on 
lecturing what the media says in other countries with respect 
to us.
    We do have a problem with the Arab street, with the souk 
[market], in terms of getting them to have a better 
understanding of what we are trying to do. To that end, if I 
could take advantage of your time, Mr. Kerry, we are going to 
do a better job in public diplomacy. I approved earlier this 
morning some important new public diplomacy documents and web 
sites that will take our case to the street a little bit better 
than we have been taking it to the street lately.
    Senator Kerry.  Mr. Secretary, I am pleased to hear that.
    My time is up. If I could just say in closing, I do think 
that the on-the-ground component post-Taliban will require I 
think not just an Afghan structure, but a presence that I hope 
is global. I would particularly commend the concept of the UN 
Security Council Permanent 5 contributing to that, because 
there is no better statement about a global commitment to that 
will answer some of the divisions you have just addressed in 
terms of public diplomacy.
    Secretary Powell.  I agree. Thank you, Senator.
    The Chairman.  Gentlemen and ladies, we have been joined by 
and I would like to welcome a delegation from the French 
Foreign Relations Committee, led by their Chairman, Francois 
Lanca, and by their Co-Chairman, as well as the French 
Ambassador. We welcome you and wish to personally----
    [Applause.]
    The Chairman [continuing]. We wish to, on behalf of all the 
American people, to thank you, thank you for standing with us, 
thank you for your support. It means a great deal. Again, 
welcome.
    Senator Kerry, who lived in Normandy for a while, wants to 
know whether you would like that translated.
    Senator Kerry.  No.
    The Chairman.  I would just like to hear him speak French.
    I would now yield to the Senator from Indiana, Senator 
Lugar.
    Senator Lugar.  Thank you very much, Mr. Chairman. I join 
you in your greeting to the French delegation. It is really 
very important that you join with us in this consideration with 
our Secretary of State of these very vital problems.
    I commend you, as we all do, Mr. Secretary, for a 
magnificent piece of work in pulling together this coalition. 
What I want to ask, though, of you today is to think aloud 
about the education of the coalition as well as our education 
in America in public life and in private life. At least as we 
in the Congress and now you in the State Department and people 
in the White House are contemplating terror by anthrax and the 
biological situation, no one knows for certain the relationship 
with that and the activities of Osama bin Laden. But 
nevertheless, as we all think through the network as it is now 
described of people who have been trained at camps of al-Qaeda 
in Afghanistan or elsewhere, some of these people come from 
many nationalities, with apparently very disparate political 
agendas, not necessarily all of the Arab street people that you 
were just mentioning, but nevertheless a common desire to 
disrupt, to act out in violent ways their destiny or what they 
believe might affect humanity in one way or another.
    This is very hard for all of us to understand. We all are 
acquainted now with the fact that this is not going to be an 
army and a frontal assault and a nation state and all the 
things for which we are equipped in our armed services. But we 
are not really exactly sure who it is and what it is and where 
the enemy is.
    Trying to describe this to all the members of the coalition 
would seem to me to be even more difficult, because some people 
have an instinctive fear and maybe many countries have much 
more experience with terrorism and with these people in various 
ways than we do. So we are being initiated in a rough way.
    But at the same time, it seems to me it is important for us 
all to keep discussing who the enemy is, because otherwise I 
sense at various points, as was suggested, people will flake 
off from the coalition. Or even some say it may be a moving 
coalition: have a few countries here, a few there, and so forth 
as you begin to take a look at where the cells are, what the 
agendas are, and what the definition of terrorism is, as you 
were plagued with in questions in the House yesterday or other 
fora.
    How do we achieve this business of defining the enemy in a 
way that we can have some constancy over the course of time in 
which the coalition matures and strengthens, as opposed to 
saying, we have really had enough bombing here, or we are tired 
of this particular operation, or we wish it was just all over, 
which we hear continuously even as we are attempting to try to 
bring to justice some people who have killed 5,000 Americans 
and it is very vivid still for us?
    Secretary Powell.  It is an excellent question, Senator 
Lugar, and a difficult one to answer. In the first instance, it 
is easy to identify an Osama bin Laden. He is right out of 
central casting. He represents no country, no religion. He is 
an invader in Afghanistan. So there is no difficulty in 
identifying him as a terrorist and getting everybody to rally 
against him.
    Now, there are other organizations that probably meet a 
similar standard. The FARC in Colombia comes to mind. The real 
IRA comes to mind, both of which are on our terrorist list at 
the State Department.
    But then you start to run into areas where one man's 
terrorist is another man's freedom fighter, and that is where 
you have to apply judgment. You have to apply judgment that 
says is there a better way to express grievances, or is there a 
better way to change the political problem that you are dealing 
with, is there a better way to gain your rights, and are you 
fighting for the kind of rights we believe in, are you fighting 
for the kind of values that suggest you respect human rights 
and democracy?
    These are difficult calls to make. As you noted, 
yesterday--you can be quite challenged in explaining these 
differences with respect to the Middle East. I think most of 
the members of the coalition have suffered terrorism in their 
own country in one way or another. So they are sensitive to it 
and know it when they see it. I think this coalition can be 
kept together, and I think we can use this coalition to go 
after the clear cases of terrorism and then to start to explore 
the gray areas, where there have been longstanding differences 
that have not yet been resolved.
    It is going to take patience. It is going to take 
diligence. It is going to take the kind of patience and 
diligence that gave us the breakthrough the day before 
yesterday in Northern Ireland, where two groups fighting all 
these years finally realized that this was not going to do it 
and found a way hopefully now to move forward.
    So we are just going to have to persuade everybody to stick 
to it and continue to make distinctions between that which is 
legitimate protest and legitimate movement toward freedom 
against an oppressor and that which simply does not meet that 
standard. But there are not going to be black and white rules 
and every instance.
    Senator Lugar.  On an entirely different tack, you 
mentioned in your early comments today the remarkable 
invocation of article 5 by NATO right off the bat, as you say. 
That was extremely important and heartening. Then this was 
reiterated as further evidence was provided.
    One of the questions, though, that many Europeans are 
asking, maybe some Americans, is what does this mean? Now, 
granted that it may not be appropriate in the special 
operations in Afghanistan to involve many other countries side 
by side with American Special Operations Forces, and we are in 
the early innings of this. But it would seem to me to be 
important that we think through carefully how this article 5 is 
to be utilized. This is a precedent and it is a remarkable 
first.
    To leave our NATO partners along the sidelines, simply 
accepting their gratitude or their support, but not to invoke 
really their forces, their money, their organization, all the 
rest, would seem to me to be quite a loss. You cannot organize 
everybody at the same time and others in NATO are doing a lot, 
Lord Robertson and others. But at the same time, what thought 
is being given as to what the article 5 means and how NATO 
really is to be invoked here?
    Secretary Powell.  Well, as you recall, Senator, they teed 
up article 5 within 24 hours, and then they waited for us to 
identify an enemy who had attacked us. When we were satisfied 
that it was Osama bin Laden and the al-Qaeda network, we then 
made that case to NATO. We sent them classified information. We 
gave them a briefing from my special Ambassador for 
counterterrorism, Ambassador Taylor. Once he convinced them, 
they then invoked article 5, a couple of weeks, maybe 2 or 3 
weeks after the September 11th incidents.
    Then once they did that, we immediately gave them a list of 
things we wanted all members of the alliance to sign up to, 
overflight rights and some other things that all of the 18 
other nations could participate in. But beyond that then, we 
then went individually to each country to see what assets they 
might be willing to provide.
    Some are able to do much more. Our French colleagues are 
able to do quite a bit more than some of the other NATO members 
and they have been generous in their offer. We are now 
integrating their contribution into the overall plan.
    So at this point, once we got these general agreements 
across the NATO and all of those countries have signed up to 
those general requests, now we are really handling it more on a 
bilateral basis with each of the NATO members. Now, we could 
have done that without invocation of article 5, but the 
invocation of article 5 makes it cleaner and it puts it under 
the overall umbrella of NATO.
    I also think that NATO, not so much as a military 
institution but as a political institution as well, might well 
have a role to play in the future of Afghanistan. We will have 
to wait and see.
    Senator Lugar.  Thank you.
    Senator Dodd [presiding]: Thank you, Senator.
    Senator Biden had to step out of the room for a minute to 
take a call, so as acting chairman here for a minute or so, Mr. 
Secretary, thank you, and let me join my colleagues in 
expressing our tremendous gratitude to you. You have done a 
terrific job and it is appreciated not only here, but I think 
around the world. We are very lucky to have you doing the job 
you are doing. I commend you for it.
    Just a couple things. One, I do want to express my 
gratitude to you for meeting with Martin Maginnes. What you and 
Richard Haass have done has been tremendously helpful. You 
rightly point out, while it is not complete and there is work 
yet to be done, this was tremendous news in Europe with the 
decision to proceed with the decommissioning process. I think 
that happened in no small measure because you and others 
decided to continue the continuum of foreign policies between 
administrations where appropriate. Obviously, from time to time 
there will be differences, but I think it is very healthy that 
the world can see us handing the ball off one administration to 
the next where there are matters where there are common 
interests and not have these breaches and breaks that occur. 
This is a wonderful example of where the ball was passed off 
and, because you were there and Dick Haass did such a good job, 
I think it contributed to the events that we saw unfold in 
Northern Ireland. I commend you for it.
    I am glad you are here. I appreciate your doing this. I 
know you are busy, but I think it is so important for people 
here at home and around the world to see the Secretary come 
before the Foreign Relations Committee in the Senate and the 
House as well and have an open public discussion. It is further 
evidence of the differences between how we function as a 
governing institution or institutions and those with whom we 
are at conflict today. So I know this takes time, but I 
appreciate your being here.
    I want to talk about the notion of sort of the public 
diplomacy, if we can, in the Islamic world. There are those who 
are going to suggest that we should have foreseen September 
11th, we could have predicted it. That is a debate for another 
time. What we certainly should have done I think to some extent 
is been more involved or understanding of what was going on 
inside Afghanistan, given our involvement there during 
Afghanistan's efforts to expel the Soviet Union from that 
country.
    To see emerge a radical regime that is aiding and abetting 
Osama bin Laden or terrorist organizations and doing so under 
the name of Islam, just the contradiction is so glaring. It 
strikes me that, while you have said on countless occasions, 
the President has said on any number of occasions, I think most 
of us up here have, if not all of us, that this is not a 
conflict with the Muslim world or the Islamic faith at all. I 
do not know how many times you have said it, but I do not think 
I have ever seen you speak where you did not mention that over 
and over again.
    Yet it just seems to be a disconnect with this. It strikes 
me that something far more systemic and fundamental needs to be 
understood about this chasm that exists between the western 
thinking, if you will, and the thinking and understanding of 
the Islamic world and how we view each other.
    So I wonder if you might just take a couple of minutes and 
share some thoughts about how we might really do a better job 
of getting at this problem. It is not going to happen 
overnight. The thought occurred to me as a former Peace Corps 
volunteer that maybe we ought to up that kind of a program in 
that part of the world. I know we have had volunteers there in 
the past. I know there is some risk involved. But it has proved 
to be a successful program in having people understand who we 
are anyway.
    But maybe you have some other thoughts as well on how we 
can begin a process that may take a long time. But I think if 
we begin it, down the road we can maybe close that gap of 
understanding that is so wide today. I read about these 
madrasses with a million children learning by rote every day to 
hate us and to hate western civilization. These are kids 8, 9, 
and 10 years of age. The notion that somehow this is a long 
conflict gets extended when you realize there is a generation 
coming along that may be more embittered than the one we are 
dealing with now.
    Secretary Powell.  You are absolutely right, Senator Dodd. 
We have got to do a better job of it. The madrasses are 
troubling. In fact, President Musharraf when I spoke to him, we 
were talking about debt relief and providing more resources for 
Pakistan. He wants to use some of those resources for 
education, public education, not just religious education, in 
order to prepare youngsters for the whole world and not just 
this one narrow part of the world.
    I think we have to do a better job in our public diplomacy 
efforts. We are about to come out with a very excellent 
document, but it is more than a document. It is a document that 
talks about September 11th, that talks about Osama bin Laden, 
but every page has a Muslim leader condemning the actions of 
the 11th of September. We are going to translate this into 12 
languages. It is going to be electronically transmittable, so 
that every embassy in our system can download it and print it 
locally and get it out to the people.
    The new Under Secretary of State for Public Diplomacy, 
Charlotte Biers, a very, very successful executive from the 
advertising and marketing world, one of the most successful 
business persons and businesswomen in America--the Wall Street 
Journal this morning, Mr. Al Hunt too a slight tap, suggesting 
that I had hired somebody who used to sell Uncle Ben's Rice to 
do public diplomacy. Well, guess what. She got me to buy Uncle 
Ben's Rice, and so there is nothing wrong with getting somebody 
who knows how to sell something.
    Senator Dodd.  I am going to give Al a call right after.
    Secretary Powell.  Give Al a call for me.
    The point is we have got to get creative people from the 
most creative media society on the face of the Earth to put 
their time, attention, and mind power to this, and I am 
determined to do that.
    We are putting more and more of our administration 
officials on Al-Jazeera. We have just brought in one of our 
retired Ambassadors what is fluent in Arabic and he will be 
spending all of his time giving interviews on Arab radio, on 
Arab television.
    We have got to do more, for example, with IMET, 
International Military Educational Training activities, 
bringing young officers over here and exposing them to our 
system, exposing them to the kind of value system we believe 
in.
    We have got to use Muslim Americans to communicate back to 
the rest of the world. We have got these few hundred or perhaps 
a thousand terrorists wandering around Afghanistan claiming 
that they represent the Muslim faith. I have got tens upon tens 
of thousands of Muslims who want to come to the United States 
of America to become Americans, to join this value system, 
because they see opportunity here, they see a way of life here 
that is totally consistent with the faith of Islam. That is the 
kind of--we ought to show this out and not these clowns in a 
cave somewhere, but Muslim Americans who have made a new life 
here, to describe the kind of value system that this country 
has and represents to the rest of the world.
    We have just been asleep at the switch on this one for many 
years and now we have to work on it. We also have to work on 
those irritants that are out there--more than irritants, they 
are tragedies, but they cause an irritant in public diplomacy 
work: the Middle East peace process. Things of that nature also 
require our attention.
    Senator Dodd.  I thank you.
    I thank you, Mr. Chairman. Senator Lugar, by the way, I 
thought that suggestion of the NATO allies and others who have 
a strong involvement and long history of dealing in the Muslim 
world as well would be a good source of that exact kind of 
thinking.
    Secretary Powell.  Yes.
    Senator Dodd.  Thank you, Mr. Chairman.
    The Chairman [presiding]. On that point, I say to my friend 
from Connecticut, the President had asked Senator Helms and I 
when we were down last with the ranking member and the chairman 
of the House committee about some ideas. Yesterday--I take no 
pride in authorship--yesterday the President asked whether I 
would put in writing a proposal, and we have put in writing a 
proposal dealing with one aspect of this, just merely the 
aspect as it relates to broadcasting. It is beyond that.
    This is a way to target, we believe, that population 
between the age of 15 and 30, which is very important, by doing 
programming that they will like and in the process of the 
programming also expose our system. I must warn my colleagues 
now, the cost is about $280 million startup cost and it is 
about $200 million a year, and the President seems intrigued by 
it, I suspect.
    The reason I did not give it to you first, Mr. Secretary, 
he asked me to give it to him.
    Secretary Powell.  You did that overnight, Mr. Chairman?
    The Chairman.  Yes, I did it at our meeting yesterday.
    So again, I am confident we can work together. I was really 
impressed that the President felt very, very strongly about 
changing the nature of our public diplomacy. So we may have the 
circumstance here to do something very good. It need not be 
what I propose, but it could be whatever.
    Senator Hagel.
    Senator Hagel.  Mr. Chairman, thank you.
    Mr. Secretary, thank you. Thank you and your team for what 
you are doing. The President, you, your team, Secretary 
Rumsfeld, all who are involved in this great purpose and noble 
effort are doing it with not just an understanding of purpose 
and a clarity of purpose, but you are doing it in a way that 
makes all Americans proud, and we appreciate that.
    I would add my strong support for what Senator Dodd has 
just talked about and the chairman. I think there is nothing 
more critical to the ultimate destination that we are embarked 
on than defining our purpose clearly to the world. I 
congratulate you for thinking that way, Mr. Secretary, and in 
fact exercising some options that we need to exercise in 
thinking that way.
    I might also say that I appreciated your comments about 
Chairman Biden's, and also Senator Helms' comments, about 
Chairman Biden's recent dust up in the press. There obviously 
was some confusion in what he said, how he said it. I read what 
he said. It was very clear to me it was taken out of context.
    What is more troubling about that, and I am glad that most 
of the responsible leaders in this country recognize it was 
troubling, is because the chairman of the Foreign Relations 
Committee, just as when this committee was under the able 
stewardship of Chairman Helms, must be always in a position to 
exercise his thoughts or her thoughts. Those thoughts are 
important as we form policy because they represent the people 
of this country.
    I would encourage--I am not sure Chairman Biden needs 
further encouragement on this point, but I would encourage him 
to continue to speak out and talk about the things that many of 
us do not have the courage to talk about.
    The Chairman.  Thank you, sir.
    Senator Hagel.  Now, that probably will not move me up on 
the committee, but----
    The Chairman.  I will try not to speak out more.
    Senator Hagel [continuing]. I will be given privileges with 
the coffee machine.
    Mr. Secretary, I know you spent some time with the Israeli 
Foreign Minister, Mr. Peres, who was in town. He spent a little 
time with us this week. There is no question that the Middle 
East is a very important dynamic of what we are about here. 
That is debatable certainly as to how much the Middle East 
factors into what we are about. But nonetheless most of us, 
certainly this Senator does believe that this is part of the 
overall challenge that we have--the Middle East, Central Asia, 
South Asia, the Caucasus.
    I would welcome your assessment of where you believe we are 
in the Middle East and if we have time I would like you to drop 
a little bit further south and another area that troubles some 
of us is the Philippines and Indonesia. I know you had some 
opportunity to meet with some of the officials when you were in 
China as well. So thank you.
    Secretary Powell.  With respect to the Middle East, Senator 
Hagel, it is one of the most difficult problems which the 
President and I wrestle with every day. We took over the 20th 
of January this year at the time that the last attempt at a 
settlement totally collapsed, not only collapsed despite the 
very best efforts of President Clinton and Madeline Albright 
and others, but it collapsed and it also resulted, frankly, in 
the demise of the Barak's regime.
    Prime Minister Sharon came in on a platform of bringing 
security, safety to the people of Israel, and he has been 
pursuing that objective ever since, in the face of violence and 
terrorist attacks against Israeli citizens. We put in place the 
Mitchell plan, which your distinguished colleague, former 
colleague George Mitchell, and a number of others came up with, 
which provided us a road map to get out of the violence and get 
back to discussions on peace on the basis of Resolutions 242 
and 338.
    We then put George Tenet into the region to get a startup 
plan to the Mitchell plan. Unfortunately, we have not been able 
to get the violence down to a level where we can get started 
through Tenet, through Mitchell, back to 242, 338 negotiations.
    We saw a little progress about 10 days ago. I was 
encouraged finally. Chairman Arafat had brought the violence 
down a considerable amount, not zero and not to where it should 
be, but brought it down enough so that Prime Minister Sharon 
was able to respond with some openings so that people can get 
back and forth to work. He also indicated once again that he 
understood that a Palestinian state was there at the end of a 
process of mutual discussions and agreement.
    Then on that terrible next day, the cabinet minister was 
assassinated, Mr. Zeivi, and that threw everything out of whack 
again. Since then the Israelis have found it necessary as acts 
of self-defense, as they say, to go into some of the Area A 
villages and towns and there has been quite a loss of life.
    We have been trying to stabilize the situation by 
encouraging Mr. Arafat even more than we have in the past, with 
all the pressure we can put on him, to get the violence under 
control, arrest these people who are responsible for this 
violence, so they do not commit violence again, so they do not 
commit terrorist acts again. We have been pressing Mr. Sharon 
and the Israeli government to withdraw from the Area A 
settlements they have gone into, in order to get a separation 
so that we can get back hopefully to where we were some 10 days 
ago.
    The Israelis went into one village and came out yesterday, 
and I hope that is a positive sign that perhaps they are able 
to start pulling back. We have to get back to the point we were 
at some 10 days ago, where we can start to see some small steps 
toward confidence in each other, toward a little bit of trust 
in each other. But it is very, very difficult, and for every 
two steps forward it takes one terrorist to knock you three 
steps backward.
    We have got to get beyond that. We just cannot let 
terrorists stop us every time we see some progress. But I know 
what it is like, I can imagine what it is like for Prime 
Minister Sharon to face the death of a cabinet minister at the 
hands of a terrorist, his responsibility to protect the 
citizens of Israel.
    Israel is our best friend. We will never do anything that 
would put them at risk. But at the same time, the best way to 
get them out of risk is to try to move forward and to get the 
peace process moving again. That remains our commitment and 
determination, and I spend part of every single day on it. I 
may not be bouncing back and forth in the region, but I have 
got enough foreign ministers of other nations who do that as 
part of a team, because we are all united. Russia, the European 
Union, NATO, all of us together are pushing the same consistent 
message.
    Last night I spoke to Foreign Minister Joshka Fischer, who 
is there now. Xavier Solana, the High Representative of the 
European Union, is there now. We are all a single team, trying 
to apply a consistent message. I will hope to talk to Foreign 
Minister Manley of Canada this evening and he is heading there 
as well--all applying pressure.
    With respect to Indonesia, I had good discussions with 
President Megawatti in recent weeks and saw her at the APEC 
meeting in Shanghai. I thanked her for what she has been doing 
in recent weeks to take care of the security of our embassies 
and citizens in Indonesia. I had a great deal of concern in the 
weeks immediately following 11 September that the situation was 
a little volatile there and our people were being put at risk. 
There was a large number of demonstrations, in Indonesia 
perhaps more than anywhere else. Frankly, we asked the 
Indonesian government to speak out more about these kinds of 
disruptive activities, and they have been forthcoming in the 
last 2 weeks and our people are feeling much safer than they 
were 3 weeks ago.
    The Philippines, I did not have an opportunity to spend too 
much time with my Filipino colleagues on this trip. I just 
welcomed the new Philippine Ambassador to the United States in 
my office and received his credentials yesterday. I think that 
President Arroyo is moving forward with a positive agenda. She 
knows what she has to do in the Philippines. They have some 
economic difficulties they have to get through. We have also 
offered our support to them, technical support, to go after 
some of the terrorists and guerrillas what are threatening 
innocent civilians and American citizens who are resident in 
the Philippines as well.
    Senator Hagel.  Thank you.
    The Chairman.  Senator Feingold.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    I am particularly pleased to welcome Secretary Powell here today. I 
join my colleagues in congratulating the Secretary on his tireless 
diplomatic efforts in bringing together an effective international 
coalition to fight terrorism and defend the United States from future 
terrorist attacks. As Secretary Powell has made clear, the current 
coalition effort to fight terrorism is being waged on a variety of 
fronts, and the immediate diplomatic initiative by the Secretary to 
build broad international support for the U.S. response to the 
terrorist attacks is at least as important as the ongoing military 
campaign itself.
    Appropriate military actions, under the authority of the War Powers 
resolution, must be balanced by an immediate effort to restrict 
terrorist financing and improve our public diplomacy. Indeed, as we now 
recognize, the relatively unrestrained financing of terrorist 
activities made us vulnerable to attack, and gaps in the current 
international legal regime that make it difficult to track and control 
the financing of terrorist groups continue to handicap our fight 
against terrorism. Immediately following the attacks of September 11, 
the United States acted unilaterally to cut off all funding to known 
terrorist organizations and to the front groups that support them. We 
must now take similar legal steps to sustain that financial assault at 
the international level.
    In our public outreach and public diplomacy, I believe that we must 
also take immediate steps to reach out to Muslim and Arab communities 
around the world to counter any unfortunate perceptions that might 
suggest that the entire Islamic world somehow stands united against our 
country or our way of life. As Chair of the Subcommittee on African 
Affairs, I would particularly urge the Secretary to seize the 
opportunities that may now exist to reach out to African Muslim 
communities. As an initial step, the Secretary should encourage U.S. 
ambassadors in the region to initiate a new dialogue with Muslim 
leaders in Africa. Over the longer term, we should also be prepared to 
offer appropriate counter-terrorism assistance to responsive African 
governments, but that assistance should be supplemented by appropriate 
support for civil society groups. For the moment, however, I believe 
that public outreach must be a priority, although it is admittedly 
difficult at this sensitive time.
    I am also particularly eager to explore with Secretary Powell the 
diplomatic challenges that now confront us in pulling together and 
nurturing our new front-line coalition against terrorism. 
Diplomatically, I believe it is now essential to let our allies know 
that in shaping an effective coalition to respond to the September 11 
attacks, the United States is not picking friends or determining the 
contours of future strategic alliances. We are engaged in an immediate 
self-defense initiative, and we are building an effective regional 
coalition to secure that defense. While our coalition members are 
important to us, our Nation's long-term strategic alliances with 
individual states will continue to be based on mutual understanding and 
a shared commitment to human rights and democratic reform.
    I'm confident the Secretary will also agree that we must not ignore 
human rights abuses or long-term strategic alliances in the interest of 
building our immediate anti-terrorism coalition. Instead, we must 
continue to demand attention to human rights and democracy as a basis 
for building a mature relationship with any state, and we must maintain 
the capacity and the will to support an ongoing dialogue at the 
international level with all of our allies, including all of our new 
coalition partners, over human rights practices. I strongly believe 
that we will do ourselves and our coalition partners a grave disservice 
if we ignore serious human rights abuses in a misguided effort to 
advance our immediate anti-terrorism needs.
    We must also devise new mechanisms to ensure that our close 
strategic partners are not ignored as we move forward in building this 
new and unprecedented coalition against terrorism. Some states may 
continue to feel left out or ignored in the current period. We must act 
to reassure those states, although we must simultaneously recognize 
that there are few areas or regions of the world that have not been 
touched by the devastating events of September 11.
    Finally, we must also guard against excessive reactions on the home 
front, as our own actions during a national emergency will serve as an 
important example to both our friends and foes. I truly believe that 
our actions here at home will have a lasting impact on human rights 
practices around the world. In short, we must secure human rights at 
home as we press for human rights abroad.

    Senator Feingold.  Thank you, Mr. Chairman.
    Mr. Secretary, I just wanted to echo what not only every 
member of the committee, but I think just about every American, 
how fortunate we are to have you in this position at this 
point. I have felt that way before these events of September 
11th, but especially since, and I am grateful.
    I am also pleased at the way you are responding to the 
issue that we have talked about before and that Senator Dodd 
mentioned, the need for public diplomacy, especially with 
regard to the Islamic world. I would just add to the list, 
rather than ask a question about it, the need to encourage our 
Ambassadors in predominantly Muslim countries to reach out to 
those communities, particularly the moderate parts of it, that 
it should include not only the countries directly in the region 
that we are addressing here, but also African nations, and not 
just North African nations, but also some of the Asian nations 
that you were just discussing. I think that is all part of the 
picture.
    In addition, I would just encourage you to come to us with 
any proposals for public diplomacy programs that might be 
useful in allowing the United States to send Muslim Americans 
to these countries or to these communities. I would like to 
follow up on whether the existing programs are adequate.
    The questions I would like to ask first relate to a subject 
that both Senator Helms and Senator Kerry brought up, and that 
again is how Saudi Arabia is responding to our efforts and 
their level of cooperation. I know you gave general assurances. 
I am wondering if you could speak more specifically about 
whether you are satisfied with the information that you have 
received with respect to the Saudi citizens who participated in 
the terrorist attacks and those who have been detained in the 
United States for questioning.
    Secretary Powell.  I may have to yield and perhaps provide 
you a more extensive answer for the record, because other 
agencies of government are the ones who are tracking the 
individual cases. But my impression in listening to briefings 
from the Attorney General and the FBI Director and others is 
that the Saudis have been cooperative in providing us access 
and chasing down leads for us. They were very helpful to us 
early on, but there was a lot of confusion about names and who 
was on the plane, who was not on the plane, who were we looking 
for, who were we not looking for, and helping us to sort out 
quite a few name glitches.
    They have been supportive, as have our other Arab friends 
in the region. Remembering that they all have internal 
political problems and domestic concerns that they have to deal 
with, all of them seemingly have been very responsive in 
balancing their need to be a functioning, contributing member 
of the coalition and what they have to deal with inside their 
own societies.
    Can I pick up on that?
    Senator Feingold.  Please.
    Secretary Powell.  You mentioned Africa and I should have 
touched on it earlier. We have also gotten strong support from 
Africa below the Sahara. I was very pleased to receive that. 
The Organization of African Unity made a statement and 
President Waddae of Senegal has taken the lead in pulling the 
south African nations together to do more than just give us 
rhetorical support, but to actually give us more positive 
support.
    In a very meaningful ceremony to me, about 2 weeks ago just 
before I went to Shanghai, the entire African diplomatic corps 
came to my office to express their support, condolences, and to 
present to me for the President a letter expressing that 
support and their condolences to the American people from the 
African ambassadors here.
    Senator Feingold.  I appreciate that and I agree with it, 
and make sure that we are mindful that many of Mr. bin Laden's 
crimes were perpetrated on African soil.
    Secretary Powell.  Yes.
    Senator Feingold.  And that the African leaders are very 
aware of that and are very much in the mind of trying to help 
us.
     Also on the Saudi Arabian question, the question of 
cracking down on the financing of terrorist organizations. Has 
Saudi Arabia adopted new banking guidelines or regulations? 
Have they taken steps to really scrutinize the operations of 
some of the large charities that have allegedly funneled money 
to terrorist organizations?
    Secretary Powell.  My best understanding is that everything 
we have asked them to do they have done. But I would rather get 
an informed answer on specific aspects of your question having 
to do with banking regulations and specific charitable 
organizations that they have been asked to go after or shut 
down and give you an informed answer that I will bring back 
from my Treasury colleagues.

    [The additional information to which Secretary Powell 
referred follows:]

    Saudi Arabia has taken a number of steps to turn off the flow of 
money to individuals or entities suspected of terrorist ties. The Vice 
Finance Minister and Deputy Governor of the Saudi Arabian Monetary 
Agency (SAMA) traveled to Washington on October 4 to consult with 
Treasury and State Department officials on this issue. On October 15, 
the Saudi Government blocked the bank accounts of 39 individuals 
designated by the U.S. as engaging in terrorist activities. We note 
that following the Treasury Department designations, SAMA issued 
instructions to its banks to search its records for such accounts and 
report them to the government. They continue to monitor bank accounts 
for terrorist links, and remain in contact with us on this matter. The 
Saudi Press Agency announced on November 5 that Saudi Arabia's cabinet 
decided to sign the International Convention for the Suppression of the 
Financing of Terrorism.

    Senator Feingold.  Fair enough, and if it turns out that we 
have not asked those things I would be curious to know if we 
are planning to and when, and if not why not.
    Have there been any efforts to post information relating to 
the United States reward program for terrorism information in 
the refugee camps in Pakistan? Would this even be helpful or 
would it be too destabilizing?
    Secretary Powell.  Reward information?
    Senator Feingold.  We have a reward program. I am wondering 
if we are attempting to let people know in these camps and in 
these situations that such a program exists.
    Secretary Powell.  I will have to check whether we have a 
way of getting it into the camps. We put it up on a number of 
web sites and other ways of getting to people, but you will not 
find web sites in those camps. But I will have to check and see 
whether there is another way to get that kind of information to 
camps.
    Once we put it on the web sites, we started averaging 
200,000 hits a day.

    [The additional information to which Secretary Powell 
referred follows:]

    The latest Reward for Justice Program advertising campaign is 
scheduled to begin in November. It will initially target all domestic 
audiences and then in late December will move to focus on Muslim 
American communities throughout the United States. In early 2002, we 
will begin an internationally focused effort to reach overseas 
communities, with specific emphasis on communities with a large Muslim 
population or connectivity.
    This program is receiving unprecedented attention and support. The 
leveraging of multiple media, such as print, the Internet, posters, 
Public Service announcements, mass media programming, paraphernalia 
(e.g., matchbooks, bumper stickers, posters, lapel pins) and radio 
spots will convey our message to a diverse, global audience.
    Through cooperation with the Ad Council and its member advertising 
agencies, we have revamped the program. Using multiple language and 
dialects, our intent is not only to reach the widest audience possible 
in a consistent and effective manner; but to specifically encourage 
members of Islamic communities to join in combating terrorism.
    The proper utilization of Rewards for Justice advertising materials 
is dependent on multiple variables, some of which themselves are in a 
constant state of change. In certain environments, such as Pakistan, 
the program must rely heavily on the counsel of those on the ground as 
to the dividends and consequences of such deployments. While various 
media outlets throughout Pakistan have been used to advertise the 
program, there have been no such efforts directed at the refugee camps 
located there. The embassy acknowledges inherent difficulties in 
targeting that population, but continues to examine the potential.
    The Department remains committed to the principles and the 
advancement of the program, and is aggressively pursuing its 
application.

    Senator Feingold.  We had suggested posters.
    Secretary Powell.  Yes, posters, flyers, leaflets, things 
we can distribute with the food.
    Senator Feingold.  On the subject of the food, could you 
comment on concerns expressed by the Pentagon yesterday that 
the Taliban may be attempting to poison humanitarian deliveries 
of food? Do you share those concerns?
    Secretary Powell.  We have seen that report. We have seen 
that report and we thought it was best for us to comment on 
this possible contamination by the Taliban before it actually 
happened. I do not think we have seen any evidence that it has 
happened. But we wanted to put that out right away to let 
everybody know that the food we have sent in is absolutely 
safe. You have seen lots of pictures of kids eating those 
rations. So those rations are absolutely safe coming in from 
the United States, and the Taliban may have some ideas about 
poisoning them and blaming us or poisoning them just to make 
them useless, no matter whether they get caught doing the 
poisoning or not.
    But I am not aware of any actual ration that somebody has 
identified as having been poisoned.
    Senator Feingold.  I thank you.
    Thank you, Mr. Chairman.
    The Chairman.  Thank you very much.
    Senator Smith.
    Senator Smith.  Thank you, Mr. Chairman.
    Mr. Secretary, thank you for coming here. It seemed to me 
as a supporter of NATO that prior to September 11th that, while 
we were functioning as an alliance in the Balkans and in other 
places, we were very much being pulled apart by forces, perhaps 
for want of a common enemy, that enemy no longer being Russia 
or the Soviet Union. But perhaps on September the 11th the 
North Atlantic Treaty Organization found a new purpose in a 
fight against terrorism.
    Do you sense that? Is there an opportunity, as Dick Lugar 
talked about, to actually use article 5 in a constructive way 
to rebuild this alliance and also include some of the new 
applicant countries in a way that does not threaten Russia, but 
may actually include them in a coordinated way?
    Secretary Powell.  I think that opportunity is there, 
Senator Smith, and I think we ought to try to take advantage of 
it. I just might argue with you a little bit. I never thought 
the alliance was being pulled apart or split apart. I remember 
vividly in 1990 and 1991 when I was Chairman of the Joint 
Chiefs of Staff and everybody was watching the Warsaw Pact 
disappear, and my Russian colleagues would say to me: OK, now 
that we have busted up the Warsaw Pact, it is time for you to 
bust up NATO. It no longer has any purpose, any meaning. You 
brought it into existence to deal with us. We are gone, you do 
not need NATO. Get rid of it. It is an anachronism. Let us find 
a new security arrangement.
    It was very troubling. There were seminars held all over 
Washington. Every tummy-rubber in town was having a seminar on 
``Whither NATO?'' And guess what. It is 11 years later; NATO is 
here. And guess what. Everybody wants to join. So there must be 
something good about this organization. What is good about it 
is that it is a community of shared values.
    The difference between NATO and the Warsaw Pact is they did 
not want to be members. But everybody who wants to join NATO 
wants to be a member of this community of democracies, but more 
important than that, they want to be linked to North America 
and they want to be linked to the United States, and NATO is 
the way to do it. Neither the EU nor any other European 
organization provides that same linkage.
    So I gave up thinking that NATO did not have a mission some 
time around 1991, 1992, when I realized that all of these 
Warsaw Pact countries were going to want to join in order to 
become a part of the West. That is why Mr. Putin sort of every 
now and then says something like that.
    Senator Smith.  I just want to encourage you and the 
administration to take advantage of it, because I agree with 
you, I do not believe that it was going to dissolve, but I also 
think it needed some vitality. I think we were reminded of the 
common values we have on September 11th and I think we should 
not lose sight of that. That is what binds the West together. 
So I hope you will find ways to truly pursue this.
    Secretary Powell.  I agree with you entirely on that point, 
Senator.
    Senator Smith.  Mr. Secretary, recently the State 
Department Deputy Spokesman Philip Reeker made the following 
statement concerning the Israeli Army's entry into the 
Palestinian-controlled areas following the assassination of 
their Minister of Tourism. He said, ``Israeli Defense Forces 
should be withdrawn immediately from all Palestinian-controlled 
areas and no further such incursions should be made.''
    I wonder if it was meant to be that absolute. I wonder if 
the provocations like the assassination of a minister of their 
government--if that happened in our country, would we not 
pursue them out of our own boundaries?
    Secretary Powell.  I am sure we would pursue, but I think 
we would try to make the pursuit in this case as quickly as 
possible and remove ourselves from those areas. One can always 
put yourself in the position of saying this is justified, and 
Mr. Sharon and I have talked about this almost daily. I know 
why he is doing it, and I am not sure exactly how I would feel 
if I were him, but probably just as strongly.
    But what I also have said to him and said to Shimon Peres 
and others is that there is a day after, and a day after the 
day after. Ultimately your security will come behind the strong 
right arm of the Israeli Defense Forces, but it ultimately has 
to rest on peace between the two parties in the region. So 
while you are doing what you have to do in self-defense of your 
nation and of your ministers and of your people, we also have 
to keep in mind that ultimate security will come only when we 
can get back to a process of peace. So anything that while 
defending yourself is done in such a way that it makes it that 
much more difficult to get back to the path does not serve your 
interest at the end of the day. You have got to find the 
correct balance.
    In all of these months now of responding that way, using 
force, as justified as it may be in some instances, security 
has not been restored. We do not have the kind of quiet that we 
need in order to move forward with the peace process.
    Senator Smith.  Mr. Secretary, I do not doubt for a minute 
your motivation in this or that of the American government and 
that we will be steadfast in our alliance with Israel. But I am 
worried about sending a message that says when their citizens 
are murdered they cannot do what the United States is now 
doing, which is pursuing wherever the terrorists are to root 
them out by whatever means possible.
    I want peace in the Middle East, but I think sometimes we 
forget what it is like to have a discotheque blown up and a lot 
of young people with it, or a Sbarro's pizzeria taken out in a 
town square by people who are in their country sometimes or on 
their borders and who are identified with Islamic Jihad, al-
Qaeda, Hamas, and Hezbollah. These are the people that would 
murder us just as quickly. You know that.
    I want to say again publicly that I think we need to judge 
Israel by our own standards. I cannot even comprehend what it 
must be like to live in that country, a sovereign nation, a 
democratic nation, and be under the pressures they are of 
constant murder. I hope that we will be sensitive to that.
    Thank you, sir.
    Secretary Powell.  Yes, sir. The only other point I might 
add is that what makes the situation a little different, but at 
the same time makes it that much more complex, is that we are 
also asking each side to see the other side as a partner in the 
quest for peace and the absence of violence. So if you are also 
going to be a partner with the other side, as you respond to 
the deadly attacks that you receive you have to keep in part of 
your calculus the fact that this is somebody that you will have 
to be partner with, somebody you will have to work with at the 
end of the day to move forward. That makes it that much more 
complex.
    Senator Smith.  Thank you, Mr. Secretary.
    The Chairman.  Senator Wellstone.
    Senator Wellstone.  Thank you.
    Mr. Secretary, we really appreciate you.
    Secretary Powell.  Thank you.
    Senator Wellstone.  I have three questions. I am going to 
try and go through them quickly. Thanks for being here with us. 
The first is on humanitarian assistance. The second is on the 
military campaign. The second question is the one that I have 
been struggling with. The third, if I get a chance, is on 
Uzbekistan.
    On the humanitarian assistance, we passed an amendment 
yesterday on the foreign ops bill that just said let us 
redouble our efforts. I do not need to give you the statistics. 
You know it all in terms of worst case scenario. A couple of 
points.
    One is have you urged Pakistan to open up its borders in 
accordance with international law, because that is one of the 
issues right now. Maybe I will just lay them all out.
    The second has to do with this whole notion, especially in 
the northern part of Afghanistan, where I think we see the 
greatest threat of starvation, whether or not--Refugee 
International--and it is something that I have been interested 
in as well--has talked about the notion of setting up 
humanitarian corridors in this zone where you could sort of, 
with the local chief on the ground and the military and 
humanitarian, some sort of coordination, where you could 
literally set up these humanitarian corridor zones and bring in 
the food, a truck convoy, which is the best way. As you know, 
the air drops are good, but less than 1 percent of the people.
    I wondered whether you would support such an idea or 
whether we are considering something like that right now.
    Secretary Powell.  On the first point, we have encouraged 
Pakistan to continue being as generous as they have over the 
years with respect to providing refuge for people what are 
desperately in need in trying to escape their circumstances. 
The Pakistanis are at the limit of their absorptive capability 
with over 2 million refugees, and there is also some danger of 
the kinds of people who are coming across. So there have been 
some openings and closings over the last 6 weeks. We encourage 
them to do all they can.
    With respect to the second part of your question, up north, 
we are hoping that the Northern Alliance will be successful, 
which will essentially give control of the north to an anti-
Taliban faction, and that would make it easier to open access 
coming from the north, from Uzbekistan down into that part of 
Afghanistan. I have reason to believe we will be able to start 
barging things across the river. The bridge is a problem. The 
reports I had this morning was that things were improving in 
the north.
    But this, as I said to the other members earlier, and I 
think might have been here----
    Senator Wellstone.  I was here.
    Secretary Powell [continuing]. It is tenuous situation, and 
that is why every morning I have got to look at it to see what 
happened the day before.
    Senator Wellstone.  Well, on Pakistan, I understand that 
also they would need our additional economic help. There is 
only so much. But on the other hand----
    Secretary Powell.  Yes. Not just ours. The Japanese have 
kicked in $40 million. There is a lot of money and there is a 
lot of food.
    Senator Wellstone.  But you have got thousands of desperate 
people right now sleeping in the open air, without food, 
without shelter, without water, who cannot cross the border. So 
it seems to me at the highest level we are going to have to 
urge them to let people in.
    Then on the northern part, again I would just say that I 
hope it is not just contingent on what the Northern Alliance is 
able to do or not do.
    Secretary Powell.  No, we are pushing anyway.
    Senator Wellstone.  I think the notion of these 
humanitarian response zones I think is one of the ways that we 
might be able to get the food in. I just would urge you to take 
a look at it. As I say, groups like Refugee International, 
which I think do real good work--Ken Bacon was talking about 
this the other day. I think they feel like this could make an 
enormous difference in the northern part of Afghanistan, where 
you have the greatest problem.
    Secretary Powell.  I will raise it with the AID Director in 
the morning.

    [The additional information to which Secretary Powell 
referred follows:]

    We do not support the establishment of humanitarian corridors in 
Afghanistan. We are confident the coalition would honor such corridors 
and the Taliban would not--as was demonstrated by the recent diversion 
of World Food Program (WFP) food to military use in Khandahar. This 
would reduce coalition military flexibility while enhancing that of the 
Taliban. We continue to believe that the World Food Program, 
International Committee of the Red Cross and nongovernmental 
organization partners will be able, although not without difficulty, to 
transport and distribute large amounts of relief commodities, including 
food aid, into Afghanistan. We note that previous attempts to establish 
such corridors (Bosnia, Somalia, Sierra Leone) have a very mixed track 
record, even under the auspices of a protection force.

    Senator Wellstone.  I appreciate that.
    The second question is different and this is a complete--at 
the risk of being melodramatic--this is a counterintuitive 
question coming from me, someone like me. But there has been 
discussion about post-Taliban and the need to think about 
economic reconstruction and political reconstruction. My 
question is how do we get to post-Taliban.
    Yesterday we had a number of different people. I think the 
chairman was saying: Listen, you know, tough people. We see the 
resiliency of the Taliban. My question is, tell me what I am 
missing here. Are we really going to be able to do this with 
air strikes? I mean, it seems to me we are not. I do not see 
how we can on the basis of what I am reading. I do not have 
your experience, your expertise. I am looking for your help.
    If anything, we have done everything possible. You have 
been the best at saying we want to do everything we can to stay 
away from innocent civilians. But it seems like they are the 
ones that pay the price. The Taliban, bin Laden, the 
terrorists, I have this sense of foreboding that they are not 
the ones right now yet we are able to get.
    My question is, is there any other way but on the ground, 
kill or be killed warfare? Is that where we are heading? Is 
that what really is going to be necessary? I did not hear 
Senator Biden's statement at the beginning, but I would like to 
ask that question, where this is going, what we need to do. I 
am not dissenting from it. I just want to know where you think 
we are going.
    Secretary Powell.  I think the air campaign is an important 
element and it is shifting away from some of the air defense 
and infrastructure targets to targets that in my world of 
soldiering would have been called close air support targets, 
where they are actually going after Taliban units that are 
standing in the way of ground movement of Northern Alliance and 
other forces who are aligned against the Taliban.
    One always hopes and I have always hoped that air power 
will do the job.
    Senator Wellstone.  I do, too.
    Secretary Powell.  I hoped it in Desert Storm, we all hope 
it. But it may well be the case that it is air power in 
conjunction with ground movement by the Northern Alliance that 
will crack the back of the Taliban. So the air campaign--and 
here I would really have to yield more to my colleagues in the 
Pentagon to go into greater detail. But the air campaign now is 
shifting to provide close air support and battlefield air 
interdiction in support of those forces arrayed against the 
Taliban.
    If those forces show aggressiveness, if they are prepared 
to move, if they have the supplies that they need--and I sense 
that they are getting what they need--then it seems to me 
between the two, air and their ground, the Taliban would have a 
tough time coping with that over time.
    Senator Wellstone.  Between our air strikes and Northern 
Alliance?
    Secretary Powell.  That is right.
    Senator Wellstone.  That is what you are saying?
    Secretary Powell.  Now, that is not to say that tomorrow 
morning we do not wake up and the Northern Alliance has not 
moved, but the air power did its job and the Taliban regime is 
heading out of Kandahar. We do not know. That is the 
interesting thing.
    Senator Wellstone.  That is your hope.
    Secretary Powell.  It would certainly be my hope.
    Senator Wellstone.  I hope you are right. I hope you are 
right.
    I think I ran out of time, so I will just in 30 seconds say 
that the question--you do not have to answer; we can talk 
later. On Uzbekistan, we passed an amendment yesterday that 
just called for a reporting on our money and how it is spent 
with the security in that country. We need them. They are part 
of our coalition. My simple point--and you are very sensitive 
to this. My simple point is this is also a government that 
crushes people because they practice the Islamic faith, and we 
have made it clear that we are not at war with people who 
practice the Islamic faith.
    So there is some kind of way in which we need to make this 
distinction of ally but not uncritical support of this 
government in the way in which it just crushes its own people. 
We can talk about it later.
    Thank you for being here.
    Secretary Powell.  Thank you, Senator.
    The Chairman.  Senator Chafee.
    Senator Chafee.  Thank you, Mr. Chairman.
    Let me add my praise for your continued distinguished 
service.
    My question involves one of Osama bin Laden's hot button 
issues, one that he seems to use effectively: the presence of 
our military bases on the Arabian Peninsula. What is the status 
of those bases? When did we first put them in? How long were 
they contemplated to be there? Has all of this changed now?
    Secretary Powell.  We really are hosted by a number of 
nations in the region at their bases. Some of those bases have 
been used by us for 50 years. Bahrain has been home to the 
American fleet for almost, close to 50 years if my memory 
serves me correctly.
    Every single one of those facilities, our presence in every 
single one of those countries, is at the invitation of that 
country and relates to our mutual security interests. We have 
military forces in Kuwait. We have military forces in Oman and 
other nations in the region. They are there by invitation and 
they are there because in a previous time and place those 
nations were threatened by other Muslim nations. So we are 
there to defend them from aggressor nations who also happen to 
be Muslims. So there are Americans who are there helping them 
to protect their interests, and we should not allow Osama bin 
Laden to make that case.
    We are not infidels or violators of anything. We are there 
and our young men and women are pretty good guests to have if 
you are going to have guests. They deport themselves very, very 
well and they are performing a magnificent job, and I think the 
countries that host them are very pleased to have them. I have 
had delegations recently from Bahrain and Qatar and other 
places, and they speak highly of our youngsters, and they are 
pleased to serve as their hosts.
    Senator Chafee.  Well, if I have some continued time left I 
would like to follow up on some points Senator Smith was making 
about NATO and the many eager candidates to join the alliance. 
Is there any effective role for the United Nations in this 
conflict?
    Secretary Powell.  Oh, yes indeed. We discussed this 
earlier, that Mr. Brahimi, Ambassador Brahimi of Algeria, who 
is the Secretary General's personal representative for 
Afghanistan and has had this role before, is going to be the 
key figure in helping to pull together what that new government 
looks like and what U.N. presence, administrative presence, 
might be required to get them up and running.
    Senator Chafee.  And they have had some experience with 
setting up provisional governments in East Timor and elsewhere.
    Secretary Powell.  Yes.
    Senator Chafee.  Thank you, Mr. Secretary.
    Secretary Powell.  Two examples I have in mind: East Timor 
and Cambodia.
    The Chairman.  Senator Brownback.
    I might add before Senator Brownback asks his questions, 
his contribution to facilitating the changes that we needed to 
take legislatively in Pakistan, as well as his knowledge and 
expertise about, as you referred to them, the Stan's, has been 
invaluable, and I think he has played a lead role in that on 
the Senate side in facilitating the request you made to me. 
Really, it is this Senator.
    Secretary Powell.  I share that sentiment entirely, if I 
may, Mr. Chairman, and I thank the Senator for the role he has 
played.
    Senator Brownback.  I thank you, and thank you, Mr. 
Chairman, for the comments. I am delighted that we have been 
able to work so well so fast on some of these, what have been 
pretty intractable foreign policy issues for a number of years. 
But I think it just should be shown to the American public that 
when we have got a threat from abroad, this country unites, 
pulls together, and we get the job done and we are going to get 
the job done, which is what your State Department is doing, and 
I am really pleased with seeing that.
    If I could first say that, a little contrary to my 
colleague from Minnesota, about the Uzbeks, the foreign 
minister you noted was just here and is in town and I think 
would meet with any members that would like to. Uzbekistan has 
I think been stand-up straight with us on taking on a very 
difficult situation, and are now getting a lot of pressure from 
some people in the neighborhood that they are in. I hope we 
work real closely and carefully with them--I know that you 
will--at the same time we press them forward on our set of 
issues we believe in, and we do not move off of democracy, 
human rights, religious freedom. Those are key things for us.
    But I think there is clearly a way that we work with people 
and at the same time that our values get seeded with them over 
a period of time, and that we work carefully doing that. I 
would hope we would work over a long period of time with a 
number of these countries in Central Asia that I think are 
going to be critically important to us clearly in this campaign 
and on into the future. They are going to be in a central role.
    So I just want to add that as a side comment. I do not know 
if you have any thoughts that are any different from that.
    Secretary Powell.  I agree with you. We have had tremendous 
cooperation from the Uzbek government and the Foreign Minister 
and I speak regularly on the phone. They know that when you 
invite us in and you want us to have a friendly relationship 
with you, we bring our values, and we believe our values are 
not American, but they are universal. So we will always speak 
up for tolerance and for human rights and individual liberty 
and practice of religion.
    Senator Brownback.  I think it is important that we work 
with them, because that is a tough, tough region and we need 
friends in that area.
    I want to ask you--this is a side issue of sorts, but it is 
connected. There have been some reports about bombings, air 
campaign bombings in Georgia that have been taking place in the 
past weeks, because of I guess allegations of Chechnyan support 
or allowing transit through Georgia to get into Chechnya, and 
supposed Russian bombings taking place in Georgia.
    Now, I am curious if you know or could update us on these 
events and any U.S. responses, or if you could enlighten me 
further on what is taking place in that particular area?
    Secretary Powell.  There are guerrillas, I shall call them, 
who the Russians view as a threatening presence in Georgia, who 
have also been in Abkhazia. We got reports of bombings over the 
last 2 or 3 weeks and we have taken this up with the Russians. 
They have not directly acknowledged that they conducted such 
bombings or that such bombings took place, although we are 
reasonably sure that somebody's fighter jets that have the 
capacity to reach that area within range of those jets 
conducted some bombing activities.
    We have made it clear to the Russians that we think any 
action of this type on anybody's part is out of place. This is 
not the way to solve this problem. President Putin and 
President Bush discussed it in Shanghai last Sunday night.
    Senator Brownback.  I am glad to hear that, that that is 
taking place.
    I want to take up a comment that you had made in the 
opening statement that I have heard a lot of, and I have heard 
it again from Mr. Musa the other day, the head of the Arab 
League, about the watching of the Arab street and that there is 
only kind of so much that can be taken on because of the 
reaction that might take place in the Arab street. I really 
wonder if the issue here is a lack of other ways to express in 
the Arab street.
    My fundamental point here is I think we have got to push 
everywhere in the world for democracy, human rights, ability to 
be able to freely express, religious freedom, that including in 
places in the Arab world as well. As we go forward in 
Afghanistan, hopefully post-Taliban shortly, that we are going 
to continue to push there and in the rest of the world for, 
look, in Afghanistan it is going to be democracy, including 
women having the right to vote and participating in the 
society--we passed a little amendment on that yesterday--that 
as we press forward on this campaign that we press a region of 
the world that I think at times we have been a little more 
timid on pressing just the basic things that we stand for.
    That is going to be, I know it is going to be, a difficult 
issue for you in keeping the coalition together. But I think it 
is just paramount for us to do that.
    Secretary Powell.  It is a tricky issue, but I think you 
are absolutely right, Senator, because many of these nations, 
the leadership does not represent the street. Democracies 
represent the street. You are here sitting behind that green 
table because you represent the street, and the day you all 
stop representing the street you are out of here, more so with 
your colleagues on the other side. But nevertheless, unto dust 
thou shalt return the day you stop representing the street.
    But when you do not have a free democratic system where the 
street is represented in the halls of the legislature and in 
the executive branches of those governments, then they have to 
be more concerned about the passions in the street. It is 
almost--it is not what you would expect. You would think if you 
do not have a democratic system you have greater authority. But 
in some ways you may have greater power, but it is not clear 
you have greater authority in the sense that you are operating 
with the authority of your people.
    I have started to raise these issues and talk to some of 
our friends in the region and said, you know, in addition to 
sort of criticizing us from time to time and terrible 
editorials about us in your newspapers, better start taking a 
look in the mirror.
    Senator Brownback.  Thank you.
    The Chairman.  Senator Allen.
    Senator Allen.  Thank you, Mr. Chairman.
    Secretary-General----
    Secretary Powell.  Hi, Governor.
    Senator Allen [continuing]. Good to see you, and I want to 
publicly express all my gratitude on behalf of all the people 
in America for your very steady, principled, solid, experienced 
leadership for our interests. You are an embodiment of all the 
principles that are articulated in the Declaration of 
Independence, and there is no more articulate leader in our 
country than you, and thank you for your dedicated service to 
our cause and others in the world.
    Secretary Powell.  Thank you, Senator.
    Senator Allen.  One thing I have learned, I would say, Mr. 
Chairman, is I had all sorts of questions here. I even was 
going to say something to our French friends. By the time you 
get down here, every question has been answered. Nos ami 
francais are gone, so I cannot even say thank you to them for 
fighting the war against terrorism in French.
    But let me follow up on some of the questions, or actually 
some of the sentiments by the chairman and Senator Helms, Dodd, 
Feingold, Gordon Smith, and Hagel; all covered some of the 
issues, and just checking right through them. If I were a 
lawyer on cross-examination, I could rest my case.
    Let me, though, follow on Senator Hagel and Senator Gordon 
Smith's question as far as Yasser Arafat is concerned. It was 
reported that President Bush this week at least drafted, if not 
sent, a letter to Chairman Arafat calling on him to ``make 
absolutely certain'' that his forces arrest those responsible 
for the assassination of Israeli Minister Zeivi. Now, my 
questions are: Has the letter been sent? Has there been a 
response from the Palestinians to it? And this gets to the 
overall question, and we brought this up in a private meeting 
and I do not expect a lot of things that are private and 
sensitive to be stated here, but has there been a response from 
that letter if it has been sent?
    Which gets to the overall question: If Chairman Arafat--we 
do want to have somebody to be able to deal with. If he is 
going to be the authority of the Palestinians or the leader, it 
is important that he have control if we are going to be 
negotiating with somebody toward peaceful ends between the 
Palestinians and the Israelis.
    Secretary Powell.  The letter was sent on Sunday from 
Shanghai. I think it was Sunday. It could have been Saturday. 
Forgive me, but either Saturday or Sunday we edited it and the 
President approved it and it was sent over the weekend.
    I do not know if we have received a reply. It would go to 
the White House first, and I have not seen a reply. There may 
be one, but I cannot answer that part of your question.
    Senator Allen.  Do you know if there is any reply 
forthcoming as far as him turning over those who were involved 
in the assassination of this cabinet minister?
    Secretary Powell.  He has said to my diplomats in the 
region, Counsel General Schlicker, that he is working on it. 
They have made some arrests. It is not clear that they have 
made all the arrests that could be made or should be made and 
whether those arrests are true arrests as you and I know them 
or just somebody held in some kind of home detention. That is a 
source of contention.
    But the Chairman has been told by the President in that 
letter and by me personally that same evening by phone call and 
subsequently that this has got to have his full attention. We 
are not going to go forward, we cannot get back to where we 
were just 10 days ago, unless arrests are made in this murder 
and the organizations responsible for this are brought under 
control number broken up.
    Senator Allen.  That is a very good, strong, resolute 
statement. I hope they listen closely and comply.
    On another area, I was reading your remarks. I know you 
edited it here, but in your at least prepared remarks, insofar 
as Pakistan and India is concerned and the desire and assurance 
to President Musharraf that our improved relationship was not 
just temporary, it was long term, which I think would be 
beneficial to us, but most importantly beneficial to the people 
of Pakistan, and not just have this a temporary alliance.
    I very much commend you for going right in the middle of a 
hot spot, but seeming to smooth things over insofar as India 
and Pakistan are concerned.
    One concern that many of us recognize is President 
Musharraf in I think his bravery, his courage, and the efforts 
of both India and Pakistan to be of assistance to us in this 
war on terrorism. However, there are a lot of these fanatics 
right on the ground there. We may have some somehow in this 
country, but nowhere near the numbers, obviously, that are 
right there in Pakistan and trying to get over their border.
    What is your assessment, just for the public record, of the 
stability of the Musharraf government, because we see these 
protests on TV. We hear that they are exaggerated, and any 
incident could be exaggerated by TV. But what is your best 
assessment as to the stability and the continuity and the 
support from the people of Pakistan for the Musharraf 
government?
    Secretary Powell.  My distinct impression is that he has 
thought through the consequences of his actions. He did that 
after I called him on the 13th of September and told him, you 
have to make a choice, sir. He thought it through, took 
courageous, bold action, thought through all of its 
consequences, and so far I think it has come out well for him.
    He enjoys the support of all of his top leaders. He has 
been able to change some of those leaders to put more of his 
own people in place, and felt strong enough to do that and did 
it successfully. Polls show that a majority of the people in 
Pakistan support what he has done. A very large majority, much 
higher majority, 80 something percent, do not like our military 
action in Afghanistan.
    Senator Allen.  The majority do not?
    Secretary Powell.  Something like 80 percent do not like 
what we are doing in Afghanistan, the military action. But they 
understand what he did to come down strongly against terrorism 
on the side of those fighting terrorism. But there is this 
dichotomy between what the government has done and their 
support of the government and their approval or lack of 
approval for our actions.
    So that is one of the reasons that President Musharraf says 
almost at every one of his press conferences: I hope this 
military campaign is as short as possible. He also says: But 
the mission has to be accomplished.
    But my judgment is that he is as secure as one can be when 
you do have threats in a country such as Pakistan against 
established rule and against your life. Something could go 
wrong. But he also seems to be taking action to deal with some 
of the extremist elements in his society.
    What deeply impressed me about President Musharraf is as he 
talked about debt relief, I came back with it emblazoned across 
my forehead: not send me weapons, send me this, send me that; 
debt relief. My staff told me that he is going to call me in 
the morning to talk about--debt relief. What does he want to 
use that debt relief flexibility for? Poverty reduction 
programs, social programs, education programs, so he can put in 
place a public education system and start to break the hold of 
some of the madrasses.
    So I think he is secure. He has got a pretty good idea of 
what he is about and he is moving forward aggressively. So I 
was pleased at that.
    Let me also say a word about India because you touched on 
India. I visited India as well and we have received strong 
support from President Vajpayee and Foreign Minister Singh, my 
counterpart. They are anxious to do more. They are very anxious 
to be part of the humanitarian flow going into Afghanistan.
    What I tried to assure both my Pakistani and Indian 
interlocutors is that it is not a zero sum game, it is not a 
hyphenated game, U.S.-India-Pakistan. It is U.S. and India, it 
is U.S. and Pakistan. It is not a zero sum game that one 
benefits at the disadvantage of the other. We can have solid 
relations with both. Both relations can go forward and we want 
both relationships to go forward in a positive manner and 
hopefully start to create conditions which will allow dialogue 
to resume between the two sides on the issue of Kashmir.
    Senator Allen.  Thank you.
    Mr. Chairman, thank you.
    The Chairman.  Thank you.
    Mr. Secretary, we will just keep you a few more moments. On 
debt relief, Senator Lugar, who has really led in this whole 
area, but Senator Lugar and I have suggested that debt relief 
be used with regard to Russia so that they could direct more 
funds into their nonproliferation programs to divert dangerous 
materials or technology. Should we give the administration the 
authority to pursue that possibility?
    Secretary Powell.  I do not know what particular authority 
the President might need, but I would certainly like to 
consider it. One of the major items of discussion between 
President Putin and President Bush this past Sunday was old 
Soviet era debt, debt relief. I also had this--if I may, sir, I 
also had the conversation with Foreign Minister Ivanov last 
Thursday night at dinner, same subject.
    They have got to get out from under that burden, and they 
are very interested in using the relief they get to go after 
some of the Nunn-Lugar programs and chemical weapons 
elimination and those sorts of things. So I think there is 
merit in this.
    I talked to Foreign Minister Ivanov earlier today about the 
next time we are going to get together and he said, ``And I am 
bringing my economic ministers; we have got to talk about debt 
relief.''
    The Chairman.  Well, as I said, Senator Lugar is the lead 
on this. I am just along for the ride. But I do not think there 
is anything more important that we could possibly do than 
provide you with all the tools you need based on your 
inclination and their desire to deal with what is probably a 
cost of $8 to $9 billion to do away with their chemical 
weapons, probably somewhere on the order of $30 billion by the 
Baker report over 8 years or 9 years to deal with nuclear 
weapons. If they are ready, I truly think there could be--I 
cannot think of any higher priority than being able to corral 
that.
    Is Musharraf still committed to elections in October 2002?
    Secretary Powell.  Yes. I asked him that directly and he is 
committed to elections next fall.
    The Chairman.  I hope you are able--I mentioned it 2 days 
ago when we were all at the White House. I thought your 
initiative on new smarter sanctions with Iraq was absolutely 
right on target. I know you got sort of bandied about a little 
bit, not by the President but by folks in the Congress and 
others. You are dead right in my view. I hope you are able to--
and I mentioned this before--work out a way in which in this 
new interest that Russia seems to have, it may be able to 
benefit us both and they may--with your ingenuity--there may be 
a way to prevent them from being sort of the kibosh on getting 
this done. I want you to know you would have some strong 
support up here for that effort.
    The last point I will make is actually a question, a very 
brief question. I realize that Iran is a complicated situation, 
and I know I have tried my best; I do not think I have a clear 
read on where Khatemai and Khomeini and the relationship. I 
think I know, but it is very complicated. There seems to be a 
genuine desire on the part of those who were elected to search 
for new relationships with us and the West generally, and 
Khomeini seems to still have a veto power over that and not 
inclined to do that.
    But I found it fascinating, and maybe I attach too much 
significance--I like your comment. Since nothing much happens 
relating to foreign policy without consensus in that country, 
consensus meaning Khomeini signing off if Khatemai moves, the 
almost--I do not know where it came out of--the request--I 
mean, excuse me, the commitment that Iran would help ferry out 
downed American pilots in Afghanistan, which they border 
obviously. Is that just a freestanding assertion or is that 
sort of an entree to a larger dialogue?
    How do you read that?
    Secretary Powell.  I do not think that that particular item 
is an entree to a larger dialogue. But they have said some 
other things that might give us an entree to slightly larger 
dialogue, and there are some other aspects of that I might 
discuss with you privately.
    The Chairman.  Well, at another time I would like to talk 
with you about it. We are keeping you very long. I yield to my 
colleague Senator Helms. I know you have been here over 2 hours 
already. We will not keep you much longer. Believe it or not, 
it has been more than 2 hours. So thank you. I know you are 
having fun, but----
    Senator Helms.  There have been a lot of reports, Mr. 
Secretary, saying that there are links between the September 
11th terrorist attacks and the recent anthrax attacks and 
Saddam Hussein. Is that just a manufactured report or is there 
accuracy to it?
    Secretary Powell.  There are a lot of reports, but I do not 
think anybody can point to specific linkages, except why now 
are we having all of these anthrax attacks? That is the only 
linkage I see in my mind. But nobody can yet give you firm 
evidence that links the two.
    Senator Helms.  There is a whole lot of stuff going on, I 
bet you so and so and so and so and so, and by the time the 
presses start to roll: It happened. We need a little tightening 
up of manufactured stories, I think.
    Secretary Powell.  We had our first anthrax case in the 
State Department today.
    Senator Helms.  Yes.
    Thank you.
    The Chairman.  Senator Wellstone.
    Senator Wellstone.  The chairman was gracious enough to ask 
if I wanted to ask any questions, and I just want to thank you.
    Secretary Powell.  Thank you, Paul.
    The Chairman.  Senator Lugar.
    Senator Lugar.  Mr. Secretary, I have just two points. I 
appreciate Senator Biden's mention about arms control and debt. 
As you prepare and the President prepares for the Crawford 
meeting, again and again the Russians have told you and they 
have told some of us that some of their trade with Iran as it 
deals with, as they characterize it, peaceful nuclear 
development is a business transaction, that they need the 
business. The volume traded there is very important, they would 
say, as you take a look at their revenues and their problems.
    They rationalize some commercial transactions, as they 
perceive them, with Iraq in the same way, that for us to be 
critical of this is to deprive them of business. But at the 
same time, we are in a war against terror and trying to 
maintain an intersection between the terrorists and weapons of 
mass destruction, and at the end of the day Iran and Iraq are 
very important in terms of those developments and what friends 
in Russia are prepared to do to help us with this.
    So sub rosa sometimes Russian diplomats come behind the 
barn and suggest that if we are that concerned about it, we 
ought to be concerned about their debt; that in fact there are 
ways of lightening that load and the need to deal with these 
countries. You have been through this, but this is an important 
area while we are talking about debt reduction and weapons of 
mass destruction and what after Afghanistan, bin Laden and the 
Taliban and what have you.
    The other point is that it could be, and this at least we 
read in the press, that at Crawford the President and President 
Putin will discuss reduction of nuclear arms, specifically 
weapons of mass destruction of the nuclear variety. All sorts 
of figures have been cast around of reductions from the 6,000 
more or less level to 2,000, 1500, what have you.
    Whatever it may be, you know that the single destruction of 
a nuclear weapon, the taking of the warhead off of the missile, 
the breakdown of that warhead, and the separation of the 
fissile material, and the storage of the material so that it 
does not come into play somewhere else, are very expensive. 
Now, we are all pushing across the table and saying 6,000 to 
1500 without any relationship to the billions, the tens of 
billions of dollars, that are represented in that critically 
important negotiation for the world.
    Now, at the end of the day, if we are not thoughtful about 
this, the Nunn-Lugar Act--or whatever it may be at that point--
is going to become very large in the same way that the Chemical 
Weapons Convention, although signed by the Russians, is beyond 
their scope given the costs of their doing it. So I mention 
that because that is an element of this negotiation that I have 
not heard discussed, but I suspect you have and will. It fits, 
it seems to me, in what the chairman is saying today about at 
this point having a many-sided discussion of debt and revenue 
and United States assistance in whatever program it may be and 
some very significant fencing off of weapons of mass 
destruction in Iran and Iraq quite apart from security, for the 
materials that we are encouraging the Russians to create. I add 
this at the end of a long hearing because I think it is 
important.
    Secretary Powell.  There is not a point that you made, 
Senator Lugar, that was not discussed with them over the last 
week.
    Senator Lugar.  Good.
    Secretary Powell.  They need the cash-flow from what they 
sell to Iran. We are looking at creative ways of constraining 
what they sell to Iran so that it will not be threatening to us 
and, as we say to them, threatening to you; you are a lot 
closer to them than we are. They said, ``We know that, so do 
not lecture us so much about it.'' Well, we need to lecture you 
because you are selling some things that are not helpful.
    With respect to Iraq, they not only need the cash-flow, but 
they have a big debt owed to them by Iraq and they are trying 
the protect that.
    With respect to the reduction of strategic forces, of 
course we are in constant discussion with them on what those 
new levels might be. The President is committed to deep 
reductions. But I know as well as you do so well, Senator--you 
are perhaps the living expert on this subject--it is one thing 
to have only 3,000 strategic weapons in your force structure 
and to have 10,000 in your inventory because you have not been 
able to bust them up and get rid of them.
    Senator Lugar.  That is right.
    Secretary Powell.  We all have those quantities laying 
around. Maybe the missile is gone, maybe the body is gone, but 
this ugly core is there, and we have got to do something with 
it--reprocess it, turn it into fuel, figure out what to do with 
it, to store it in a safe way.
    Senator Lugar.  Thank you.
    The Chairman.  Gentlemen, anyone else?
    [No response.]
    The Chairman.  Again, Mr. Secretary, we truly appreciate 
your willingness to be up here, your candor, and your 
leadership.
    I would ask consent that the record remain open until the 
close of business tomorrow for questions or statements for the 
record, if that is possible.
    Any concluding thing you would like to say?
    Secretary Powell.  Yes, sir. I would like to conclude on 
one note. I have now been the Secretary for I guess 9 months 
and I cannot tell you how much it has meant to me to have the 
support of this committee, but more than that the actions you 
have taken to help us with fixing our building programs, 
recruiting more people for the Foreign Service, taking care of 
our families, giving us the operating money that we need, along 
with the other committees that oversee us, have meant a lot to 
the Department, meant a lot to the morale of the Department. 
The officers of the Department now know that people care about 
them up on the Hill.
    As I said to you in my confirmation hearing, this is a 
major part of my agenda, my role, to be not just a foreign 
policy adviser, but to be the leader and the manager of the 
Department. We could not do it, I could not do it, without the 
kind of support we receive from this committee.
    Thank you.
    The Chairman.  You are a man of your word. You followed 
through on your commitment. The least we can do is give you the 
tools.
    We are adjourned.
    [Whereupon, at 4:37 p.m., the committee was adjourned.]

Responses to Additional Questions Submitted for the Record to Secretary 
                    Colin L. Powell by the Committee

RESPONSES OF SECRETARY COLIN L. POWELL TO ADDITIONAL QUESTIONS FOR THE 
            RECORD SUBMITTED BY SENATOR JOSEPH R. BIDEN, JR.

    Question.  The Agency for International Development as well as 
various private aid agencies are extremely worried about their ability 
to move an adequate amount of food into Afghanistan before winter sets 
in. Given the dire need in that country, and the fact that both India 
and Pakistan have declared substantial surpluses of some commodities, 
will the U.S. purchase food in the region for delivery inside 
Afghanistan as part of our aid effort? Will the United States provide 
money for private aid agencies to purchase food locally?

    Answer. The U.S. Agency for International Development (USAID) has 
already purchased approximately 15,000 metric tons of food (wheat) in 
the region, valued at $6 million for delivery inside Afghanistan. A 
significant portion of USAID's food assistance is procured and 
delivered through the World Food Program. In addition, USAID is 
providing private voluntary organizations (PVOs) with funds to purchase 
food locally, particularly complementary commodities such as pulses 
(lentils) and oil in the amount of 12,658 metric tons, valued at over 
$5,840,000. The PVOs currently engaged in this relief effort include 
Agency for Technical Cooperation and Development; CARE, Inc.; 
International Rescue Committee; and Save the Children USA.

    Question. How much of the $320 million that President Bush has 
pledged has actually been provided to aid agencies to date?

    Answer. Currently $167 million of the $320 million announced by 
President Bush has been apportioned to USAID and the Department of 
State. Of the $167 million, $75 million has been apportioned to the 
Department of State's Bureau for Population, Refugees and Migration for 
refugee assistance ($25 million of for Emergency Refugee and Migration 
Assistance and $50 million for Migration and Refugee Assistance), $72 
million to USAID's Bureau for Humanitarian Response for P.L. 480 Title 
II food assistance, and $20 million to USAID's Bureau for Humanitarian 
Response for International Disaster Assistance. The remaining $153 
million has been notified to Congress, but has not yet been 
apportioned.
    For the current crisis to date, $45,266,323 of International 
Disaster Assistance, $58,437,500 of P.L. 480 Title II resources, and 
$32,600,000 of refugee assistance ($30,000,000 of Emergency Refugee and 
Migration Assistance and $2,600,000 of Migration and Refugee 
Assistance) has been obligated for aid organizations working in the 
Afghanistan region.

    Question. By now it's obvious that we made a grave mistake in 
disengaging in Afghanistan. By abandoning the country, we certainly 
helped sow the seeds for the current situation, or at least allowed 
them to be sowed. What types of assistance will we need to provide in 
the region? How long will we need to stay involved in aid efforts 
there? What is it going to cost to adequately fund development efforts 
there? How much will you have to increase the Agency for International 
Development's 2003 budget to adequately Undertake these activities?

    Answer. With virtually all institutions destroyed, the recovery and 
reconstruction of Afghanistan will require a concerted multi-donor 
effort over several years. USAID has identified the following as 
priority areas for the first 2-3 years of a recovery period:
    <bullet> Livelihoods and Income Generations.--This effort would 
support community public works programs that generate employment (and 
hence income) as well as put in place critical community infrastructure 
schools, water systems, health facilities, etc. This effort would also 
support functional literacy and skills training programs which would 
include awareness raising of current dangers (e.g., land mines, health 
issues) as well as literacy programs and skills training to enhance 
health and family livelihoods and promote access to employment. A 
special emphasis would be placed on women.
    <bullet> Basic Education.--Basic education programs would support 
community-based education, with specific attention to girls. These 
programs would provide a vital tool for promoting psychosocial well-
being after and during trauma.
    <bullet> Improve Household Food Security and Promote Agriculture.--
Using local and international, nongovernmental, organizational, and 
other community organizations, programs would: distribute seed and 
fertilizer packages together with tools; rehabilitate and construct 
critical irrigation facilities and rural feeder roads; and distribute 
breeding stocks of goats, sheep and other livestock lost during the 
recent drought. Programs also would help reestablish local markets, 
facilitating movement of agricultural inputs and outputs. Food-for-work 
programs would be used where appropriate.
    <bullet> Meet Basic Health Needs.--Using existing relief NGOs, 
these programs would deliver a package of essential primary health care 
services at the community level. Services would likely include child 
survival interventions such as immunizations, vitamin A 
supplementation, prevention and treatment of diarrheal disease, 
treatment of acute respiratory infection and continued infant and young 
child feeding. Maternal health, treatment and prevention of infectious 
diseases and basic water and sanitation infrastructure also would be 
included.
    <bullet> Information Dissemination.--Increase access by vulnerable 
populations to relevant information via radio and alternative media so 
that assistance efforts are transparent. Efforts would support the 
development of credible and timely information on assistance programs 
particularly targeted for refugees and other vulnerable groups. 
Participants would work with international and local partners to 
produce and broadcast relevant information in local languages, 
disseminate up to 30,000 radios and, batteries, and explore alternative 
media.

    Question. Has the government of Uzbekistan agreed to allow the LTN 
to stage relief efforts from Uzbekistan? What kinds of activities have 
they agreed to allow the UN to carry out? Will the Uzbek government 
allow ground delivery of humanitarian goods into Afghanistan?

    Answer. The government of Uzbekistan has promised United Nations 
Under Secretary General for Humanitarian Affairs Kenzo Oshima that it 
would permit humanitarian assistance to cross on barges into 
Afghanistan. The government has allowed UN agencies such as UNICEF, 
UNHCR, and the World Food Program to import relief supplies and 
warehouse them in Termez, on the Uzbek border with Afghanistan. The 
Uzbek government is concerned about the security of humanitarian 
shipments and wants assurance that supplies will not fall into Taliban 
hands.

Link Between Iraq and September 11 Attacks
    Question. There have been numerous press stories about a possible 
link between Iraq and the September 11 attacks. has the Administration 
established a link between Iraq and any of the recent terrorist 
incidents in the United States?

    Answer. At this point, we do not have intelligence that 
demonstrates that Iraq actively was involved in the assaults on 11 
September or the subsequent anthrax attacks. The intelligence community 
is aggressively pursuing all intelligence leads related to the attacks, 
including clandestine and press reporting.

    Question. Is there a possibility now--given the warming 
relationship with Russia--to gain Moscow's support for so-called 
``smart sanctions?''

    Answer. We are continuing to pursue a new approach at the UN that 
lifts economic sanctions on purely civilian goods for the benefit of 
the Iraqi people and refocuses controls on militarily useful materials. 
The UNSC made progress earlier this year. We are urging Russia to join 
the Security Council consensus in support of this new approach, and to 
support passage of a US-UK sponsored resolution implementing it before 
November 30.
    The September 11 attacks against the United States have altered the 
political context of U.S.-Russian relations. We are working together 
with Russia in a broad-based coalition to combat and eradicate 
terrorist organizations, and to put maximum pressure on their state 
sponsors. Close cooperation with Russia against a common enemy might 
have wider, positive implications for the bilateral relationship, 
facilitating discussions on other important issues. In light of the 
improved relationship with Russia since the events of September 11, we 
hope that Russia will be convinced, as were other members of the P-5, 
to change the status quo on Iraq. We are discussing Iraq with Russia at 
the highest levels. It is important that Russia work to restore Council 
unity and not succumb to Baghdad's attempts to manipulate the Council.

    Question. What are the possibilities of revitalizing a multilateral 
coalition to confront Iraq and reverse the inroads it has made in 
recent years?

    Answer. There is broad support among UNSC member states and others 
for a new multilateral approach on Iraq that lifts economic sanctions 
on purely civilian goods and focuses controls on preventing the Iraqi 
regime from obtaining the means and materials to re-constitute WMD and 
rebuild its military.
    Most UNSC member states and others see this new approach as an 
effective and acceptable means of controlling Iraq's threat to the 
region, particularly in light of Iraq's continued refusal since 
December 1998 to allow resumption of UN weapons inspections.
    Most UNSC members also believe that this approach will help 
demonstrate that the Iraqi regime, not UN controls, is responsible for 
the humanitarian conditions of the Iraqi people.
    With the notable exception of Russia, UNSC member states broadly 
support the UK-sponsored draft resolution that would implement this new 
approach. We are continuing to work with Russia in an effort to reach 
consensus on a resolution to implement the new approach.

    Question. Because of the various stories about different attitudes 
within the Administration over how to handle Iraq, there is some 
confusion about our intentions. Could you clarify how the 
Administration intends to approach the Iraq issue in the coming months?

    Answer. We continue to pursue consensus on a UNSC resolution 
implementing a new multilateral approach to Iraq that would lift 
economic sanctions on purely civilian goods and focus controls on 
preventing the Iraqi regime from obtaining the means and materials to 
reconstitute WMD and rebuild its military. There is substantial 
agreement on this new approach among UNSC members, including P-5 
members China, France, the UK, and the U.S. Our efforts are now focused 
on reaching agreement with Russia on a resolution to begin implementing 
this approach.
    We also continue to monitor the no-fly zones to deter the Iraqi 
regime from repressing the populations of northern and southern Iraq 
and from threatening its neighbors.
    We are reviewing and further developing our policy on regime 
change. As we do so, we continue to work with the Iraqi opposition for 
a better future for the people of Iraq.

Former CIA Director's Trips on Iraq
    Question. What can you tell us about press reports of former CIA 
director Jim Woolsey's trips to the United Kingdom to look for evidence 
linking Iraq to the terrorist attacks in the United States?

    Answer. We refer you to Mr. Woolsey or the Department of Defense 
for that information.

RESPONSES OF SECRETARY COLIN L. POWELL TO ADDITIONAL QUESTIONS FOR THE 
               RECORD SUBMITTED BY SENATOR BARBARA BOXER

    Question. Do you believe that our coalition members, especially 
Pakistan, share your vision of a successor regime that is broad-based 
and reflective of all the people of Afghanistan?

    Answer. We have stressed to all coalition members that all 
legitimate Afghan groups, including the Northern Alliance, Rome Group, 
and Southern Pastuns, must play a role in a broad-based post-Taliban 
government. This government must represent the interests of all 
Afghans, including women and girls and minorities, and observe 
international norms of behavior, particularly human rights. All 
coalition members, including Pakistan, have told us they agree with 
this fundamental position. President Musharraf has endorsed this goal 
publicly.

    Question. Are you satisfied with the current pace of discussions on 
a post-Taliban Afghanistan?

    Answer. We and our coalition members are insisting that any future 
Afghan government must be multiethnic and representative of genders and 
religions. It must respect human rights, particularly affecting women 
and girls, end terrorism and follow internationally accepted norms of 
behavior. Discussions about how to bring this about will be complicated 
and time-consuming. We are, however, convinced that all members of the 
coalition desire this outcome and are proceeding with a sense of 
commitment to that end.

    Question. What role do you envision women playing in the 
reconstruction of Afghanistan?

    Answer. The U.S. recognizes the key role women have to play in the 
political and economic recovery of a future Afghanistan. Afghan exile 
women have been involved in the Rome Group discussions. The Taliban 
disrupted a tradition in which women contributed to the economic, 
cultural, and political fabric of their country in a wide variety of 
roles. Even so, Afghan women have continued to play an important role 
in their society through informal groups. Moreover, in spite of Taliban 
pressures, a number of Afghan resistance groups have actively assisted 
women both in Afghanistan and in refugee camps. We appreciate your 
(Senator Boxer) and Senator Brownback's support in efforts to restore 
to the women of Afghanistan their dignity and make it possible for them 
to determine their destiny as well as contribute to their society.

    Question. Have you spoken to Ambassador Brahimi, Kofi Annan's 
special representative for Afghanistan, on the need to include women in 
the planning process for a reconstructed Afghanistan? It seems to me 
that one of the first things that will need to be done is to resettle 
millions of Afghan refugees. And since such a large percentage of 
Afghan refugees are women, shouldn't women have a role in deciding how 
that resettlement is to take place?

    Answer. We are working closely with UN Special Representative 
Brahimi on the UN's efforts regarding Afghanistan. We agree that this 
matter deserves prominent attention in our ongoing dialogue with the UN 
on the future of Afghanistan.
    As with refugee populations worldwide, over 80 percent of the 
Afghan refugees are women and children. Afghan women are very prominent 
in Afghan NGOs in Pakistan and in UN planning for refugee returns. Mr. 
Brahimi met with a group of Afghan women during his recent trip to the 
region, to discuss their views for the future of their country and 
incorporate those views in his negotiations. We support his efforts to 
ensure that women play a prominent role in Afghanistan's reconstruction 
and will continue to press this issue with our interlocutors. The 
Department of State funds NGO projects in education and health for 
Afghan women and girls.

    Question. Mr. Secretary, during yesterday's hearing before the 
House International Relations Committee, the issue of setting a 
standard by which an act is defined as terrorism was raised. Some have 
argued, for example, that a suicide bombing that kills innocent 
civilians eating lunch at an Israeli pizzeria is a terrorist act no 
different than Israeli military strikes designed to eliminate known and 
dangerous terrorists. In my opinion, even if the military strike 
involves unintentional collateral damage, these two acts are not 
comparable and only the first should be labeled terrorism. Do you 
agree?

    Answer. I agree with you that the two examples you cite are very 
different. If your first example refers to the August 9, 2001 bombing 
of the Sbarro restaurant in downtown Jerusalem, President Bush, in 
response to the attack, stated ``Palestinian Authority Chairman Arafat 
must condemn this horrific terrorist attack, act now to arrest and 
bring to justice those responsible, and take immediate, sustained 
action to prevent future terrorist attacks.''
    At the same time, we have generally sought to avoid endless debates 
internationally about the definition of the word ``terrorism'' because 
of the way the issue becomes politicized. As I stated to the House on 
October 24, the problem is, we've got to find a way to move forward and 
not just continue to have discussions as to what is terrorism and what 
isn't terrorism. It's a vicious cycle.
    Where the U.S. needs to use a specific definition for domestic 
purposes, U.S. law contains several different definitions appropriate 
to the particular contexts. For example, ``terrorism'' is defined for 
purposes of preparing the Patterns of Global Terrorism Report pursuant 
to 22 U.S.C. 2656f as ``premeditated, politically motivated violence 
perpetrated against noncombatant targets by subnational groups or 
clandestine agents, usually intended to influence an audience,'' while 
a ``Federal crime of terrorism'' is defined for, inter alia, purposes 
of assigning primary investigative responsibility under 18 U.S.C. 2332b 
as ``an offense that (A) is calculated to influence or affect the 
conduct of government by intimidation or coercion or to retaliate 
against government conduct; and (B) is a violation of [one of a list of 
terrorist-related offenses].''

    Question. Why is it so difficult for the world to agree on a common 
definition and standard for terrorism? What can be done?

    Answer. The international community has agreed on specific acts of 
terrorism that are prohibited, e.g., the bombing of a public building 
is considered to be a terrorist act when the intention of the bombing 
is to cause death or serious injury or extensive destruction of such a 
public building that results in major economic loss. There are 12 
international anti-terrorism conventions that address specific acts of 
terrorism, including terrorist bombings, financing of terrorism, 
attacks on diplomats, hijackings and so forth.
    Agreement on what is or is not included in a general definition of 
terrorism is more elusive. For example, some countries believe the 
activities of national liberation movements (``the peoples' struggle 
against foreign occupation'') should be exempt from the definition of 
terrorism because they believe such activities are justified and 
therefore not terrorist acts. The U.S. does not agree with that 
rationale. Countries also view the activities of armed forces 
differently. The U.S. and like-minded countries believe that the 
activities of armed forces during an armed conflict and the state 
military forces in the performance of their official duties should be 
exempt from the definition of terrorism, since such activities are 
governed by other provisions of international law. Some other countries 
believe that the activities of armed forces that engage in so-called 
``state terrorism'' should be considered terrorist acts. The 
conflicting views reflect deep political divisions in areas of the 
world such as the Middle East. It is unlikely that such issues will be 
fully resolved in the near term.
    The U.S. believes, however, that resolving the overall definition 
question is not essential to a comprehensive international legal 
framework for addressing terrorism. The 12 international terrorism 
conventions (and the possible addition of 2 more currently under 
negotiation) provide the international legal basis to require parties 
to these treaties to extradite or prosecute accused terrorists for 
specified acts of terrorism.

RESPONSES OF SECRETARY COLIN L. POWELL TO ADDITIONAL QUESTIONS FOR THE 
           RECORD SUBMITTED BY SENATOR JOHN D. ROCKEFELLER IV

    Question. What steps has Japan been taking to play a meaningful 
role in the international coalition against terrorism?

    Answer. Following the September 11 attacks, Prime Minister Koizumi 
and other leading Japanese figures quickly responded with strong 
statements of support. Japan generously donated $10 million to support 
the rescue operations in New York and Washington and to aid U.S. 
firemen, police and rescue workers.
    On September 19, Koizumi announced a seven-point plan for 
contributing to the counterterrorism campaign and quickly introduce 
legislation that would enable Japan's participation in the coalition 
efforts. The new legislation, enacted by the Diet at the end of 
October, paves the way for Japan to provide non-combat rear-area 
support to coalition forces, which might include transportation, 
communications, search and rescue, and similar forms of assistance. In 
addition, the new legislation allows Japan's Self Defense Forces to 
protect U.S. forces and facilities in Japan. The Japanese are now 
working on the details of the Self Defense Forces' contribution to the 
international coalition.
    Tokyo is also providing considerable humanitarian economic 
assistance and refugee relief to affected countries in the region. 
Arriving in six C-130s, Self Defense Force elements provided refugee 
relief supplies to Pakistan. Japan is also providing Pakistan with 
roughly $40 million, and offered Pakistan debt rescheduling assistance 
of about $550 million. In late October, Japan lifted the sanctions it 
imposed when Pakistan conducted nuclear testing, and Tokyo is now 
considering additional economic assistance for Pakistan. Japan has 
pledged $120 million to the UN, $6 million to UNHCR, and $2 million to 
Tajikistan, all for Afghan refugees. The government of Japan has moved 
to freeze terrorists' assets in Japan linked to the Taliban. Tokyo also 
offered to host an international conference on Afghan peace and 
reconstruction.
    We find these contributions to the counterterrorism campaign very 
valuable, and we look forward to close cooperation with Japan as we go 
forward. The United States greatly appreciates Prime Minister Koizumi's 
bold political leadership in overcoming considerable political, legal 
and social obstacles in support of the counterterrorism campaign.

Australia and the War against Terrorism
    Question. Is Australia a major partner in the war against 
terrorism?

    Answer. Yes. In the wake of the September 11 attacks--in which at 
least three Australians were killed--the Australian Government invoked 
the ANZUS Treaty, Australian pilots (on exchange details to the U.S. 
military) helped defend U.S. airspace, and 1,500 Australian military 
personnel began deployment in support of Operation Enduring Freedom. A 
steadfast ally of long standing, Australia has further enhanced our 
already close cooperation in intelligence-sharing, financial controls, 
and global diplomacy. We are deeply grateful for Australia's support.

    Question. While Indonesia has long been a good friend of the United 
States, its role as the world's most populous Muslim society could mean 
that close Indonesian cooperation in the war against terrorism, bin 
Laden and his supporters could be politically difficult for President 
Megawati's government. What steps, if any, is the United States 
taking--or what further steps could the United States take--to 
strengthen our ties to the Indonesian Government and the Indonesian 
people?

    Answer. The new United States ambassador to Indonesia has been 
extremely active since his arrival in Jakarta in mid October. He has 
sought out members of the Indonesian administration at all levels, 
members of parliament, and media and business contacts, to convey the 
United States' strong support for a stable, united, democratic, free 
market-oriented and prosperous Indonesia that shares our commitment to 
counterterrorism.
    The Department of State is working with Congress to secure at least 
$130 million in bilateral assistance for Indonesia in fiscal year 2002, 
with a special focus on assisting Indonesia's efforts with legal and 
judicial reform.
    The three United States trade finance agencies--the Export Import 
Bank, the Overseas Private Investment Corporation and the United States 
Trade and Development Agency--have developed a joint trade and finance 
initiative to help promote economic development in Indonesia The three 
agencies will undertake to provide up to a combined $400 million, two-
year program to promote trade and investment within Indonesia, 
especially in the Indonesian oil and gas sector.
    The United States will send experts to Indonesia to examine 
concrete ways to strengthen bilateral cooperation on counterterrorism, 
in particular on capacity and institution building. This would include 
technical assistance to increase Indonesian capacity for freeze 
terrorist financial assets. In addition, the United States intends to 
expand cooperation with Indonesia to combat other transnational crimes, 
including piracy, money laundering, trafficking in persons, narcotics 
and smuggling of small arms.

    Question. On November 1, there will be a transfer of political 
power in Burundi--a transition that has led to tribal bloodshed several 
times in the last century. At a time when U.S. energies are focussed on 
Afghanistan and war against terrorism, what steps has the U.S. taken to 
ensure that the international community will prevent another round of 
bloodshed in Burundi?

    Answer. The United States, in close consultation with the 
international community, is a strong supporter of the Burundi peace 
process, which is designed to reach a political solution to the civil 
conflict that has plagued Burundi since 1993. We support Nelson 
Mandela's facilitation of the peace process both diplomatically and 
financially and continue to consult closely with our European and 
African allies on ways to ensure the implementation of the August 2000 
peace agreement. We supported UNSC Resolution 1375 endorsing the 
deployment of South African troops to Burundi to act as a protection 
force for returning opposition leaders participating in the 
transitional government inaugurated on November 1.

RESPONSES OF SECRETARY COLIN L. POWELL TO ADDITIONAL QUESTIONS FOR THE 
            RECORD SUBMITTED BY SENATOR RUSSELL D. FEINGOLD

Terrorist Financing
    Question. On the question of cracking down on the financing of 
terrorist organizations, has Saudi Arabia adopted new banking 
guidelines or regulations? Have they taken steps to at least scrutinize 
the operations of some of the large charities that have allegedly 
funneled money to terrorist organizations?

    Answer. Saudi Arabia has taken a number of steps to turn off the 
flow of money to individuals or entities suspected of terrorist ties. 
The Vice Finance Minister and Deputy Governor of the Saudi Arabian 
Monetary Agency (SAMA) traveled to Washington on October 4 to consult 
with Treasury and State Department officials on this issue. On October 
15, the Saudi Government blocked the bank accounts of 39 individuals 
designated by the U.S. as engaging in terrorist activities. We note 
that following the Treasury Department designations, SAMA issued 
instructions to its banks to search its records for such accounts and 
report them to the government. They continue to monitor bank accounts 
for terrorist links, and remain in contact with us on this matter. The 
Saudi Press Agency announced on November 5 that Saudi Arabia's cabinet 
decided to sign the International Convention for the Suppression of the 
Financing of Terrorism.

    Question. Have there been any efforts to post information relating 
to the United States Reward Program for terrorism information in the 
refugee camps in Pakistan? And would this even be helpful, or would it 
be too destabilizing?

    Answer. The latest Rewards for Justice Program advertising campaign 
is scheduled to begin in November. It will initially target all 
domestic audiences and then in late December will move to focus on 
Muslim American communities throughout the United States. In early 
2002, we will begin an internationally focused effort to reach overseas 
communities, with specific emphasis on communities with a large Muslim 
population or connectivity.
    This program is receiving unprecedented attention and support. The 
leveraging of multiple media, such as print, the Internet, posters, 
Public Service announcements, mass media programming, paraphernalia 
(e.g., matchbooks, bumper stickers, posters, lapel pins) and radio 
spots will convey our message to a diverse, global audience.
    Through cooperation with the Ad Council and its member advertising 
agencies, we have revamped the program. Using multiple languages and 
dialects, our intent is not only to reach the widest audience possible 
in a consistent and effective manner; but to specifically encourage 
members of Islamic communities to join in combating terrorism.
    The proper utilization of Rewards for Justice advertising materials 
is dependent on multiple variables, some of which themselves are in a 
constant state of change. In certain environments, such as Pakistan, 
the program must rely heavily on the counsel of those on the ground as 
to the dividends and consequences of such deployments. While various 
media outlets throughout Pakistan have been used to advertise the 
program, there have been no such efforts directed at the refugee camps 
located there. The embassy acknowledges inherent difficulties in 
targeting that population, but continues to examine the potential.
    The Department remains committed to the principles and the 
advancement of the program, and is aggressively pursuing its 
application.

</pre></body></html>
